<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Feinstein, Murray, 
Specter, Cochran, Bond, Hutchison, and Bennett.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee welcomes 
Dr. Robert Gates, the Secretary of Defense, and Admiral Mike 
Mullen, the Chairman of the Joint Chiefs of Staff, to testify 
on the administration's budget for fiscal year 2011. We welcome 
you and thank you for joining us.
    The administration has requested $540 billion for base 
budget for the DOD for fiscal year 2011, an increase of $18 
billion over the amount enacted last year. Additionally, the 
administration has requested $159 billion in supplemental 
funding for overseas contingency operations in the next fiscal 
year, roughly equal to the supplemental funding requested for 
the current fiscal year.
    The base budget for DOD has nearly doubled in the last 10 
years, and since 2001, we have spent close to $1 trillion on 
post 9/11 combat operations. Those are staggering numbers, to 
say the least, and warrant some judicial scrutiny on behalf of 
both the warfighter and the taxpayer.
    Mr. Secretary, last year, you set out to reform the 
Pentagon's budget, and particularly by seeking greater balance 
in our force structure between competing requirements for 
irregular and conventional warfare. This year's budget request 
continues this effort. One key theme you have emphasized in 
recent months is the need to provide an institutional home in 
the Department for the warfighter engaged in the current fight.
    We would agree with that, but as you well know, much of the 
critical force protection equipment that is used in the theater 
today has been funded outside the regular budget and is being 
managed by newly created and ad hoc organizations that we 
understood were to be temporary in nature. Yet even after 
several years at war, these task forces still haven't 
transitioned to regular Defense Department operations. The Mine 
Resistant Ambush Protected Vehicle Task Force; the 
Intelligence, Surveillance, and Reconnaissance Task Force; the 
Joint Improvised Explosive Device Organization; and the 
Helicopter Survivability Task Force come to mind.
    Last year, you even created a senior integration group to 
oversee efforts by these task forces. These organizations are 
not only largely funded with supplemental appropriations, they 
remain apart from the regular acquisition process and enjoy 
considerable flexible authorities, some of which are being 
interpreted quite broadly, to say the least.
    Mr. Secretary, when we met last year, you indicated to us 
that some of these task forces would disappear. So we would 
appreciate an update from you with respect to the transition 
plans.
    At the same time, conventional threats to our national 
security remain. We need only look at words spoken and actions 
taken in recent weeks by North Korea, Iran, and China to be 
reminded that our national security challenges go beyond those 
of irregular warfare. There is grave concern that with the 
current emphasis on irregular warfare capability, we could be 
losing sight of the conventional threats and degrading our 
ability to counter them.
    And finally, Mr. Secretary, in light of our Nation's fiscal 
challenges, you recently stated that military spending should 
expect to receive harsher scrutiny. You mentioned large and 
small weapons systems, a review of Defense Department 
operations, and also the challenge of providing healthcare for 
our soldiers and veterans, quoting President Eisenhower's 
truism that, ``The patriot today is the fellow who can do the 
job with less money.''
    As you can imagine, those statements raise a few questions. 
So we hope you will take this opportunity to elaborate a bit 
further about what you have in mind.
    But before proceeding, Mr. Secretary, I would like to call 
upon our vice chairman for any comments he wishes to make.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you.
    I am pleased to join you in welcoming our distinguished 
panel of witnesses at the hearing this morning. We are 
reviewing the Defense Department's 2011 budget request.
    Mr. Secretary, I hope you can give the subcommittee your 
assessment of the timing of when the fiscal year 2010 
supplemental appropriations will be needed to support combat 
operations. When you briefed the Senators last month, you 
suggested that the supplemental appropriations bill would be 
needed prior to Memorial Day. The Senate passed a supplemental 
appropriations bill last month. The funding level approved by 
the Senate was within the funding level requested by the 
administration.
    But we have seen no movement to enact this legislation by 
the other body, and I am concerned that we are well past 
Memorial Day, and any insights you can give us now as to what 
we face because of the lack of supplemental funding might be 
helpful and help generate a little more emphasis on the 
timeliness of the action by the Congress.
    So we thank you for being here, and we look forward to your 
testimony.
    Chairman Inouye. I thank you very much.
    The show is yours, Mr. Secretary.

               SUMMARY STATEMENT OF HON. ROBERT M. GATES

    Secretary Gates. Thank you, Mr. Chairman, Senator Cochran, 
members of the subcommittee. Thank you for the opportunity to 
appear before you to discuss the President's budget request for 
fiscal year 2011 for the Department of Defense.
    I first want to thank you, as always, for your support of 
the men and women in the U.S. military for these many years. I 
know they are uppermost in your thoughts as you deliberate on 
these budget requests.
    Our troops are part of an extraordinary generation of young 
Americans who have answered their country's call. They have 
fought our country's wars, protected our interests and allies 
around the globe, and they have demonstrated compassion and 
dedication in the face of tragedy and loss.
    The budget requests being presented today include $549 
billion for the base budget, a 3.4 percent increase over the 
last year, or 1.8 percent real growth after adjusting for 
inflation, reflecting the administration's commitment to 
modest, steady, and sustainable real growth in defense 
spending.
    The base budget request was accompanied and informed by the 
2010 Quadrennial Defense Review (QDR), which establishes 
strategic priorities and identifies key areas for needed 
investment. The 2010 QDR and fiscal year 2011 request build 
upon the substantial changes that the President made in the 
fiscal year 2010 budget to allocate defense dollars more wisely 
and reform the Department's processes.
    The base budget reflects these major institutional 
priorities. First, reaffirming and strengthening the Nation's 
commitment to care for the All-Volunteer force, our greatest 
strategic asset. Second, rebalancing America's defense posture 
by emphasizing both the capabilities needed to prevail in 
irregular conflicts and the capabilities that likely will be 
needed in the future. And third, continuing the Department's 
commitment to reform of how the Department does business, 
especially in the area of acquisition.
    Building on the reforms of last year's budget, the fiscal 
year 2011 request takes additional steps aimed at programs that 
were excess or performing poorly. They include terminating the 
Navy EPX intelligence aircraft; ending the Third Generation 
Infrared Surveillance Program; canceling the Next Generation 
CGX Cruiser; terminating the Net-Enabled and Control Program--
Command and Control Program; ending the Defense Integrated 
Military Human Resources System due to cost overruns and 
performance concerns; completing the C-17 program and closing 
the production line as multiple studies in recent years, 
including an outside study mandated by the Congress in 2008, 
show that the Air Force already has many more of these aircraft 
than it needs; and ending the second engine for the F-35 Joint 
Strike Fighter (JSF), as whatever benefits might accrue are 
more than offset by excess costs, complexity, and associated 
risks.
    Let me be very clear. I will continue to strongly recommend 
that the President veto any legislation that sustains the 
continuation of the C-17 or the F-35 extra engine.
    And given some recent commentary, let me be explicit. It 
would be a very serious mistake to believe the President would 
accept these unneeded programs simply because the authorization 
or appropriations legislation includes other provisions 
important to him and to this administration.
    These reforms all require political will and a willingness 
to make hard choices. We are already beginning the next step in 
this process of reform as we prepare the fiscal 2012 budget. 
Last month, I called on the Pentagon to take a hard, unsparing 
look at how the Department is staffed, organized, and operated. 
This initiative is not designed to reduce the defense top line. 
I believe the current top line is the minimum needed to sustain 
a military at war and to protect our interests in the years to 
come in an ever more unstable and dangerous world.
    Rather, my goal is to significantly reduce our overhead 
costs in order to free up the resources needed to sustain our 
force structure, to modernize, and to create future combat 
capabilities while living within the current top line. To this 
end, the Department has recently set a goal to find more than 
$100 billion in overhead savings over the next 5 fiscal years, 
starting in fiscal year 2012. No organization within the 
Department, including my own office, will be excluded from 
these efforts. All of the savings will be applied to fund 
personnel and units, force structure, and investment in future 
capabilities.
    As a matter of principle and political reality, the 
Department of Defense cannot come to America's elected 
representatives and ask for budget increases each year unless 
we have done a better job--indeed, done everything possible--to 
make every dollar count.
    Finally, in order to support ongoing operations, we are 
also requesting $159 billion in fiscal year 2011 to support 
overseas contingency operations (OCO), primarily in Afghanistan 
and Iraq, plus $33 billion for the remainder of this fiscal 
year to support the added financial costs of the President's 
new approach in Afghanistan.
    The commitments made and programs funded in the OCO and 
supplemental requests demonstrate this administration's 
determination to support our troops and commanders at the front 
so they can accomplish their critical missions and return home 
safely.
    I discussed the Defense Department's portion of the fiscal 
year 2010 supplemental request before this subcommittee in 
March and sought its approval by spring to prevent costly and 
counterproductive disruptions to the Department's operations. I 
am becoming increasingly concerned about the lack of progress 
on the supplemental and strongly urge Congress to complete its 
work on the request as quickly as possible.
    I appreciate the Senate's action on this request, but if 
the supplemental is not enacted by the July 4th congressional 
recess, we will have to begin planning to curtail defense 
operations. Such planning is disruptive, can be costly, and 
especially in time of war, and I ask your help in avoiding this 
action.

                           PREPARED STATEMENT

    In closing, Mr. Chairman, my thanks to you and members of 
this subcommittee again for all you have done to support our 
troops and their families, especially in light of the 
unprecedented demands that have been placed upon them. I 
believe the choices made in these budget requests reflect 
America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in, while making the 
investments necessary to prepare for threats on or beyond the 
horizon.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the committee: Thank you for the 
opportunity to appear before you to discuss the President's budget 
requests for fiscal year 2011. I first want to thank you for your 
support of the men and women of the U.S. military these many years. I 
know they will be uppermost in your thoughts as you deliberate on these 
budget requests. Our troops are part of an extraordinary generation of 
young Americans who have answered their country's call. They have 
fought this country's wars, protected our interests and allies around 
the globe, and they have demonstrated compassion and dedication in the 
face of tragedy and loss.
    The budget requests being presented today include $549 billion for 
the base budget--a 3.4 percent increase over last year, or 1.8 percent 
real growth after adjusting for inflation, reflecting this 
administration's commitment to modest, steady, and sustainable real 
growth in defense spending. The base budget request was accompanied and 
informed by the 2010 Quadrennial Defense Review, which establishes 
strategic priorities and identifies key areas for needed investment. 
The 2010 QDR and fiscal year 2011 request build upon the substantial 
changes that the President made in the fiscal year 2010 budget to 
allocate defense dollars more wisely and reform the department's 
processes.
    The base budget request reflects these major institutional 
priorities:
  --First, reaffirming and strengthening the nation's commitment to 
        care for the all-volunteer force, our greatest strategic asset;
  --Second, rebalancing America's defense posture by emphasizing both 
        the capabilities needed to prevail in irregular conflicts, and 
        the capabilities that likely will be needed in the future; and
  --Third, continuing the department's commitment to reform how DOD 
        does business, especially in the area of acquisitions.
    Building on the reforms of last year's budget, the fiscal year 2011 
request takes additional steps aimed at programs that were excess or 
performing poorly. They include: Terminating the Navy EP(X) 
intelligence aircraft; ending the Third Generation Infrared 
Surveillance program; canceling the next generation CG(X) cruiser; 
terminating the Net Enabled Command and Control program; ending the 
Defense Integrated Military Human Resources System due to cost overruns 
and performance concerns; completing the C-17 program and closing the 
production line, as multiple studies in recent years show that the Air 
Force already has more of these aircraft than it needs; and ending the 
second engine for the F-35 Joint Strike Fighter, as whatever benefits 
might accrue are more than offset by excess costs, complexity, and 
associated risks.
    Let me be very clear: I will continue to strongly recommend that 
the President veto any legislation that sustains the continuation of 
the C-17 or the F-35 extra engine. And given some recent commentary, it 
would be a serious mistake to believe the President would accept these 
unneeded programs simply because the authorization or appropriations 
legislation includes other provisions important to him and this 
administration.
    These reforms all require political will and a willingness to make 
hard choices. We are already beginning the next step in this process of 
reform as we prepare for the fiscal 2012 budget. Last month I called on 
the Pentagon to take a hard, unsparing look at how the department is 
staffed, organized and operated. This initiative is not designed to 
reduce the defense topline. I believe the current topline is the 
minimum needed to sustain a military at war and to protect our 
interests in the years to come in an even more unstable and dangerous 
world. Rather, my goal is to significantly reduce our overhead costs in 
order to free up the resources needed to sustain our force structure, 
modernization, and future combat capabilities while living within our 
current topline.
    To this end, the department has recently set a goal to find more 
than $100 billion in overhead savings over the 5 fiscal years starting 
in fiscal year 2012. No organization within the department, including 
my own office, will be excluded from these efforts. All of the savings 
will be applied to fund personnel in units, force structure, and 
investment in future capabilities. As a matter of principle and 
political reality, the Department of Defense cannot go to America's 
elected representatives and ask for budget increases each year unless 
we have done everything possible to make every dollar count.
    Finally, in order to support ongoing operations, we are also 
requesting $159 billion in fiscal year 2011 to support Overseas 
Contingency Operations, primarily in Afghanistan and Iraq, plus $33 
billion for the remainder of this fiscal year to support the added 
financial costs of the President's new approach in Afghanistan. The 
commitments made and programs funded in the OCO and supplemental 
requests demonstrate this administration's determination to support our 
troops and commanders at the front so they can accomplish their 
critical missions and return home safely.
    I discussed the Defense Department's portion of the fiscal year 
2010 supplemental request before this committee in March, and sought 
its approval by spring to prevent costly and counterproductive 
disruptions to the department's operations. I am becoming increasingly 
concerned about the lack of progress on the supplemental, and strongly 
urge Congress to complete its work on the request as quickly as 
possible. I appreciate the Senate's action on this request, but if the 
supplemental is not enacted by the July 4th Congressional recess, we 
will have to begin planning to curtail defense operations. Such 
planning is disruptive, especially in time of war, and I ask your help 
in avoiding this action.
                    care for our all-volunteer force
    The fiscal year 2011 budget request includes $138.5 billion for 
military pay and allowances, an increase of $3.6 billion--or 2.6 
percent--over last year. This includes an increase of 1.4 percent for 
military basic pay, which will keep military pay increases in line with 
those in the private sector. This amount funds bonuses and other 
incentives to meet recruiting and retention quality and quantity 
goals--especially for our most critical skills and experience levels. 
The military deserves generous pay because of the stress and danger 
these jobs entail. In recent years, the Congress has added 0.5 percent 
to the administration's requested military pay raise--an action that 
adds about $500 million a year to our budget now and in future years, 
and reduces the funds available for training and equipping the force. 
In this time of strong recruiting and retention, I urge the Congress to 
approve the full requested amount for the fiscal year 2011 military pay 
raise but not to add to the request.
Wounded, Ill, and Injured
    This budget supports the department's intense focus on care for our 
wounded, ill, and injured military members. As I've said before, aside 
from winning the wars themselves, this is my highest priority. Key 
initiatives include:
  --Achieving a seamless transition to veteran status for members 
        leaving the military and increased cooperation between the 
        Departments of Defense and Veterans Affairs;
  --Ensuring a high standard at facilities caring for wounded warriors, 
        including first-rate hospitals and the Army's Warrior 
        Transition Units;
  --Enhancing case management of individuals transitioning to civilian 
        life--especially those needing long-term care;
  --Establishing a better Disability Evaluation System--to create a 
        simpler, faster, more consistent process for determining which 
        members may continue their military service and helping them 
        become as independent and self-supporting as possible; and
  --Working with the VA to create Virtual Lifetime Electronic Records 
        to improve veteran care and services by improving the 
        availability of administrative and health information.
    The fiscal year 2011 budget request includes $2.2 billion for 
enduring programs for our wounded, ill, and injured. It also includes 
$300 million to complete the Army's Warrior Transition complexes and 
new medical facilities in the Washington, DC, capital region. The $2.2 
billion for these programs is $100 million more than the fiscal year 
2010 enacted amount and is more than double the fiscal year 2008 level 
of $1 billion.
Military Health System
    The fiscal year 2011 budget includes $50.7 billion for the Unified 
Medical Budget to support the Military Health System that serves 9.5 
million eligible beneficiaries. Over the past decade, U.S. healthcare 
costs have grown substantially, and defense health costs have been no 
exception, more than doubling between fiscal year 2001 ($19 billion) 
and fiscal year 2010 ($49 billion). These costs are expected to grow 
from 6 percent of the department's total budget in fiscal year 2001 to 
more than 10 percent in fiscal year 2015.
Military Family Support Programs
    The department remains fully committed to providing assistance to 
our troops and their families in light of the unprecedented demands 
that have been placed on them. Our men and women in uniform and their 
families have our respect, our gratitude, and our full support. The 
budget reflects the department's policy of shifting money to the base 
budget for enduring programs so that they will not disappear as war 
funding declines. The fiscal year 2011 base budget includes $8.1 
billion for a variety of family-support programs vital to the morale 
and well-being of our military members and their families--an increase 
of $450 million over last year. The OCO request includes $700 million 
for family support--bringing the total to $8.8 billion.
Build and Sustain Facilities
    The fiscal year 2011 budget includes $18.7 billion to fund critical 
military construction and family housing requirements, including 
substantial funding to recapitalize many department schools for 
children of service members.
    The fiscal year 2011 Base Realignment and Closure (BRAC) investment 
funding of $2.4 billion is less than prior years because most of the 
funding needed to implement the 2005 round of BRAC decisions has 
already been appropriated for 24 major realignments, 24 base closures, 
and 765 lesser actions--all of which must be completed by September 15, 
2011, in accordance with statute.
    We have requested $14.2 billion to modernize the department's 
facilities; to support the recently completed growth in the Army and 
Marine Corps; to support the relocation of 8,000 Marines from Okinawa 
to Guam; and to recapitalize medical facilities and schools for 
servicemembers' children.
               rebalancing the force--the wars we are in
    Achieving our objectives in Afghanistan and Iraq has moved to the 
top of the institutional military's budgeting, policy, and program 
priorities. We now recognize that America's ability to deal with 
threats for years to come will largely depend on our performance in the 
current conflicts. The fiscal year 2011 budget request took a number of 
additional steps aimed at filling persistent shortfalls that have 
plagued recent military efforts, especially in Afghanistan.
Rotary-Wing Aircraft
    To increase these capabilities, this request includes more than 
$9.6 billion for the acquisition of a variety of modern rotary-wing 
aircraft, including the creation of two Army combat aviation brigades 
by fiscal year 2014. The goal is to train 1,500 new Army helicopter 
pilots per year by 2012.
Intelligence, Surveillance, and Reconnaissance (ISR)
    The fiscal year 2011 budget request continues efforts to increase 
ISR support for our fighting forces. The ISR Task Force was formed in 
April 2008 to generate critical operational ISR capacity--primarily in 
Afghanistan and Iraq. Since then, the department has worked to secure 
substantial funding to field and sustain ISR capabilities. In the 
fiscal year 2011 budget, that includes: $2.2 billion for procurement of 
Predator-class aircraft to increase the Combat Air Patrols (CAPs) 
available to deployed forces from 37 to 65 by 2013; and doubling 
procurement of the MQ-9 Reaper over the next few years.
Electronic Warfare (EW)
    The fiscal year 2011 budget request supports the QDR's call for 
better EW capabilities for today's warfighters. The Navy procurement 
budget includes $1.1 billion in fiscal year 2011 and $2.3 billion in 
fiscal year 2012 for the addition of 36 EA-18G aircraft, with 12 
procured in fiscal year 2011 and 24 in fiscal year 2012. These 
resources and capabilities will help fill an imminent EW shortfall that 
has been consistently highlighted by the combatant commanders as one of 
their highest priorities.
Special Operations Forces (SOF)
    The fiscal year 2011 budget requests $6.3 billion for USSOCOM--
nearly 6 percent higher than in fiscal year 2010. The department plans 
to call for SOF funding to increase sharply over the next several 
years, including an increase of about 2,800 personnel in fiscal year 
2011.
            rebalancing the force--preparing for the future
    The fiscal year 2011 budget includes $189 billion for total 
procurement, research, and development. This investment reflects the 
fact that the United States needs a broad portfolio of military 
capabilities with maximum versatility across the widest possible 
spectrum of conflict, including conventional conflict with the 
technologically advanced military forces of other countries. To meet 
the potential threats to our military's ability to project power, deter 
aggression, and come to the aid of allies and partners in environments 
where access to our forces may be denied, this budget request includes 
substantial funds for conventional and strategic modernization.
Tactical Aircraft--JSF
    The fiscal year 2011 budget funds programs to develop and buy 
superior aircraft to guarantee continued air dominance over current and 
future battlefields, most importantly the F-35 Joint Strike Fighter 
(JSF). The fiscal year 2011 base budget includes $10.7 billion for 
continued development of the F-35, and for procurement of 42 aircraft. 
An additional JSF is purchased in the OCO budget.
    I know the JSF program is of great interest and concern to this 
committee. In response to what I consider to be unacceptable delays and 
cost overruns over the past year, this department has taken a number of 
steps to substantially restructure this program.
    First, the JSF program is now based on numbers--cost and schedule 
estimates--from the Joint Estimating Team (or JET), an independent body 
known for its rigorous and skeptical assessments.
    Based on the new JET estimates, we reduced the number of aircraft 
being purchased concurrent with testing and development. While delaying 
full-scale production was not a welcome development--to put it mildly--
it was important to avoid a situation where a problem discovered in 
testing would lead to expensive retrofits of aircraft, the most common 
reason for delays and cost overruns in these kinds of programs. 
Correspondingly, we have added more aircraft to the testing regime, 
which we believe will reduce the projected delay from 30 months to 13. 
These changes amount to a brutally realistic assessment of cost and 
schedule--one that I believe should stand the test of time and the 
legitimate scrutiny of the Congress and the American taxpayer.
    Furthermore, with regard to accountability, I have replaced the JSF 
program manager and elevated that position to a three-star billet while 
withholding more than $600 million in performance fees from the lead 
contractor. It is important to remember that the JSF's cost- and 
schedule-related issues--and I regard them as serious, to be sure--are 
problems primarily related to program administration and management, 
not the technology and capability of the aircraft. The Joint Strike 
Fighter will do everything the military services need it to do, and 
become the backbone of U.S. air combat for the next generation.
Mobility and Tanker Aircraft
    The fiscal year 2011 budget continues to support development of a 
new aerial refueling tanker. The KC-X, the first phase of KC-135 
recapitalization, will procure 179 commercial derivative tanker 
aircraft to replace roughly one-third of the current aerial refueling 
tanker fleet at an estimated cost of $35 billion. Contract award is 
expected in the summer of 2010 and procurement should begin in fiscal 
year 2013. To support this long-range effort, $864 million has been 
requested for research into the next-generation tanker.
    The fiscal year 2011 budget ends production of the C-17, supports 
shutdown activities for production of new aircraft, and continues the 
modification of existing C-17s. With the completion of the program, the 
United States will have 223 of these aircraft, more than enough to meet 
current and projected requirements.
Shipbuilding
    The fiscal year 2011 budget reflects the department's formulation 
of a realistic, executable shipbuilding plan through the Future Years 
Defense Program (FYDP). Overall, the fiscal year 2011 budget includes 
$25.1 billion for fiscal year 2011 procurement of new ships, equipment 
and research and development into future construction--including $15.7 
billion for Navy shipbuilding and conversion activities. It reinforces 
the ongoing transition to a naval force that can meet the needs of 
today's warfighters and reduce reliance on very costly and increasingly 
vulnerable large surface combatants in the future. The fiscal year 2011 
request and planned out-year funding would allow the department to:
  --Build a new aircraft carrier every 5 years;
  --Shift large-deck amphibious ship production to a 5-year build cycle 
        to maintain a long-term force structure of nine large-deck 
        aviation ships to support amphibious operations;
  --Stabilize near-term production quantities for the Littoral Combat 
        Ship (LCS) and the Joint High Speed Vessel (JHSV) to support 
        irregular warfare operations;
  --Produce two attack submarines per year beginning in fiscal year 
        2011 and continue development of a new strategic deterrent 
        submarine; and
  --Build three Mobile Landing Platform (MLP) ships--one ship per year 
        in fiscal year 2011, fiscal year 2013, and fiscal year 2015.
Ground Forces Modernization
    The fiscal year 2011 budget advances restructuring of the Army's 
Future Combat Systems (FCS), principally through Brigade Combat Team 
(BCT) modernization. The fiscal year 2011 request for BCTs is $3.2 
billion, mostly for research and development.
    The fiscal year 2011 budget also supports the development of a new 
ground-vehicle program to replace aging systems. The new program will 
take into account the hard battlefield lessons of recent years, 
especially with respect to threats posed by improvised explosive 
devices (IEDs), and will include a role for the MRAP and M-ATV vehicles 
that have been so important in Afghanistan and Iraq.
Space and Cyber Capabilities
    Just about all of our military forces--land, sea, and air--now 
depend on digital communications and the satellites and data networks 
that support them. The role of space and satellites has never been more 
crucial to military operations--from GPS-guided munitions and 
navigation to missile defense and communications. The fiscal year 2011 
budget continues to strengthen U.S. capabilities in space, with $599 
million allocated to procure Advanced Extremely High Frequency (AEHF) 
satellites instead of the Transformational Satellite, which was 
cancelled in the fiscal year 2010 budget.
    With cheap technology and minimal investment, adversaries operating 
in cyberspace can potentially inflict serious damage on our command and 
control, ISR, and precision strike capabilities. The fiscal year 2011 
budget continues to fund the recruiting and training of new experts in 
cyber warfare begun in fiscal year 2010, and supports the stand up of a 
new U.S. Cyber Command.
Ballistic Missile Defense
    The Department of Defense continues to pursue missile-defense 
systems that can provide real capability as soon as possible while 
taking maximum advantage of new technologies. In accordance with the 
2010 Ballistic Missile Defense Review, our goal is a missile-defense 
program that balances capabilities and risks in order to deter 
aggression; project power and protect U.S. and allied interests; and 
respond to warfighter requirements.
    This year's base budget request includes $9.9 billion total for 
missile defense--almost $700 million more than last year, mostly for 
the Missile Defense Agency.
    This includes funding for:
  --Enhanced missile defenses for deployed forces, allies, and partners 
        to defend against regional threats--including THAAD battery 
        ground components and interceptors, as well as the conversion 
        of additional Aegis ships.
  --The ``Phased Adaptive Approach'' for missile defense: a flexible, 
        scalable system to respond to developing threats. This has 
        particular applicability to Europe, where the new approach 
        allows us to adapt our systems more rapidly as new threats 
        develop and old ones recede. In the short-term, we will be able 
        to provide immediate coverage and protection by deploying 
        current and proven systems such as the Aegis and SM-3.
  --A viable homeland defense against rogue threats--including ground-
        based interceptors at Fort Greeley, Alaska, and Vandenberg AFB, 
        California.
  --Expansion of the flight-test program to test capabilities against 
        medium, intermediate, and long-range threats.
  --Investments in break-through technologies to improve our ability to 
        counter threats during the boost phase while focusing on the 
        most promising new technologies.
Nuclear Weapons
    The Nuclear Posture Review (NPR) released in April outlined the 
policy framework for achieving the President's objectives to reduce 
nuclear weapons with a long-term goal of elimination; and maintain a 
safe, secure, and effective arsenal as long as these weapons exist. It 
also provides steps to strengthen deterrence while reducing the role of 
nuclear weapons. The President's budget requests for the Defense and 
Energy departments reflect several priorities established in our 
review: Funding to sustain a nuclear triad of ICBMs, SLBMs, and heavy 
bombers under the New START Treaty; and increased National Nuclear 
Security Administration funding for infrastructure, warhead life 
extension, and science and technology.
    Maintaining an adequate stockpile of safe, secure and reliable 
nuclear warheads requires a reinvigoration of our nuclear weapons 
complex, that is, our infrastructure and our science, technology and 
engineering base. To this end, the Department of Defense is 
transferring $4.6 billion to the Department of Energy's National 
Nuclear Security Administration through fiscal year 2015. This transfer 
will assist in funding critical nuclear weapons life-extension programs 
and efforts to modernize the nuclear weapons infrastructure. The 
initial applications of this funding along with an additional $1.1 
billion being transferred for naval nuclear reactors are reflected in 
the Defense and Energy Departments' fiscal year 2011 budget request, 
which I urge the Congress to approve. These investments and the Nuclear 
Posture Review strategy for warhead life extension represent a credible 
modernization plan to sustain the nuclear infrastructure and support 
our nation's deterrent.
Building Partner Capacity
    In a world where arguably the most likely and lethal threats will 
emanate from failed and fractured states, building the security 
capacity of partners has emerged as a key capability--one that reduces 
the need for direct U.S. military intervention, with all of its 
attendant political, financial, and human costs. To provide more 
resources, predictability, and agility to this important mission, the 
department will seek an increase in Global Train and Equip authority in 
the fiscal year 2011 budget to $500 million--authority that includes 
coalition activities to support current operations.
                    reforming how dod does business
    President Obama is committed to ending unneeded and troubled 
programs and achieving a better balance between capabilities needed to 
succeed in current conflicts and capabilities needed to prepare for the 
conflicts we are most likely to see in the future.
    The fiscal year 2011 budget request builds on the reforms of last 
year by ending a number of unneeded or troubled programs:
  --Next Generation Cruiser CG(X).--Cancelled due to concerns about 
        costs and utility in future combat scenarios. Any resulting 
        capability gap will be filled by an enhanced Navy destroyer 
        program.
  --Navy Intelligence Aircraft EP(X).--This Navy-planned EP-3 
        replacement was cancelled because of cost and its redundancy 
        with other technologies and systems.
  --Third Generation Infrared Surveillance (3GIRS).--This sensor system 
        was cancelled because there are better alternatives.
  --The Defense Integrated Military Human Resources System (DIMHRS).--
        DIMHRS has been in development for over 10 years and cost $500 
        million--with little to show and limited prospects.
  --Net Enabled Command and Control (NECC).--This joint program has had 
        cost overruns and performance shortfalls.
JSF Alternate Engine
    One of the tougher decisions we faced during this budget process 
was whether or not to formally add the alternate engine to the Joint 
Strike Fighter program. It has been the position of this department 
since 2007 that adding a second JSF engine was unnecessary and too 
costly.
    Over the past year, as part of our thorough review of the overall 
JSF program, we took a fresh look to determine whether the second 
engine option had reached a point in funding and development that 
supported a different conclusion. We considered all aspects of this 
question and, in the end, concluded that the facts and analysis simply 
do not support the case for adding an alternate engine program. There 
are several rationales for this conclusion:
    First, even after factoring in Congress' additional funding, the 
engine would still require a further investment of $2.5 billion over 
the next 5 years.
    Second, the additional costs are not offset by potential savings 
generated through competition. Even optimistic analytical models 
produce essentially a break-even scenario.
    Third, the solution to understandable concern over the performance 
of the Pratt & Whitney program is not to spend yet more money to add a 
second engine. The answer is to get the first engine on track. Further, 
the alternate engine program is 3 to 4 years behind in development 
compared to the current program, and there is no guarantee that a 
second program would not face the same challenges as the current 
effort.
    Fourth, split or shared buys of items, particularly from only two 
sources, do not historically produce competitive behavior since both 
vendors are assured some share of the purchase. Another reality is that 
the JSF is designed to support a wide diversity of military customers, 
including the Navy, Marine Corps, and overseas buyers, many of whom are 
unable or unwilling to purchase from two engine manufacturers.
    For all these reasons, we are firm in our view that the interests 
of the taxpayers, our military, our partner nations, and the integrity 
of the JSF program are best served by not pursuing a second engine.
    I believe most proponents of this program are motivated by the 
genuine belief that a second engine is the right thing to do. And we 
have been engaging the Congress in this discussion and sharing with 
them our facts and analysis. However, we have reached a critical point 
in this debate where spending more money on a second engine for the JSF 
is unnecessary, wasteful, and simply diverts precious modernization 
funds from other more pressing priorities. Accordingly, should the 
Congress add more funds to continue this unneeded program, I will 
continue to strongly recommend that the President veto such 
legislation.
C-17
    The fiscal year 2011 request completes the C-17 program and begins 
shutting down the production line. At present, we have 194 C-17s (plus 
111 C-5s) in our strategic airlift fleet. By the end of this fiscal 
year, the department will have procured 223.
    Three department studies completed over the past 5 years have 
concluded that the U.S. military has more than enough strategic airlift 
capacity, and that additional C-17s are not required. Some factors to 
consider:
  --In 2004, the Air Force Fleet Viability board determined that the 
        fleet of C-5As--the oldest variant--will remain viable until at 
        least 2025. The Air Force and the manufacturer believe that the 
        C-5 fleet will remain viable until 2040. And ongoing 
        modernization and refurbishment efforts are intended to 
        increase the reliability, availability, and maintainability of 
        the C-5 fleet;
  --Despite the demands of the current military campaigns, the existing 
        C-17 fleet is not being ``burned up.'' With the exception of 
        2003--when there were only 111 aircraft in the fleet that were 
        being surged to begin the Iraq war--the annual use of the C-17 
        inventory has been within program limits; and
  --While it is true that the C-17 can land places where the C-5 
        cannot, of the 200,000 landings made by C-17s since 1997, less 
        than 4 percent were in places that were not accessible to the 
        C-5.
    In summary, for these and other reasons, the department has 
concluded that the current C-17 is more than sufficient to meet the 
military's airlift needs. Should Congress add funds to continue this 
program, I will strongly recommend a Presidential veto.
Acquisitions
    The department is implementing initiatives that will increase the 
numbers and capabilities of the acquisition workforce, improve funding 
stability, enhance the source-selection process, and improve contract 
execution. Our intent is to provide the warfighter with world-class 
capability while being good stewards of taxpayer dollars.
    To operate effectively, the acquisition system must be supported by 
an appropriately-sized cadre of acquisition professionals with the 
right skills and training to perform their jobs. To address these 
personnel deficiencies, DOD will increase the number of acquisition 
personnel by 20,000 positions--from about 127,000 in fiscal year 2010 
to about 147,000 by fiscal year 2015. We will be making significant 
increases in training and retention programs in order to bolster the 
capability and size of the acquisition workforce.
Civilian Workforce
    The fiscal year 2011 budget funds a pay raise of 1.4 percent for 
DOD civilians--the same as the military pay raise. The request includes 
funding to transition out of the National Security Personnel System 
(NSPS)--as directed by the fiscal year 2010 National Defense 
Authorization Act.
    About 225,000 DOD employees are covered by NSPS. These employees 
must convert to a successor statutory personnel system. The fiscal year 
2011 budget includes $23 million to implement NSPS transition and $239 
million for estimated higher civilian pay for employees transitioning 
out of NSPS.
    The request supports the DOD plan, announced last year, to grow its 
civilian workforce by in-sourcing--replacing contractors with DOD 
civilian employees. DOD is on track to reduce the number of support 
service contractors from the current 39 percent of our workforce to the 
pre-2001 level of 26 percent, and replace them with full-time 
government employees. DOD will hire as many as 13,400 new civil 
servants in fiscal year 2010, and another 6,000 in fiscal year 2011, to 
replace contractors and up to 33,400 new civil servants in place of 
contractors over the next 5 years. This includes 2,500 acquisition 
personnel in fiscal year 2010 and 10,000 through fiscal year 2014.
Fiscal Year 2010 Supplemental Request
    As the President stated, the goal of the United States in 
Afghanistan and Pakistan is to disrupt, dismantle, and defeat Al Qaeda 
and to prevent its resurgence in both countries. The international 
military effort to stabilize Afghanistan is necessary to achieve this 
overarching goal. Rolling back the Taliban is now necessary, even if 
not sufficient, to the ultimate defeat of Al Qaeda and its affiliates 
operating along the Afghanistan-Pakistan border. I believe the strategy 
announced by the President represents our best opportunity to achieve 
our objectives in a part of the world so critical to America's 
security.
    The fiscal year 2010 supplemental requests $33 billion to support 
the President's buildup of U.S. troops in Afghanistan for the rest of 
this fiscal year and fund other related requirements, including $1 
billion for Iraqi security forces. The Department of Defense urges the 
Congress to approve this Supplemental by July 4th for our troops in the 
field.
    The fiscal year 2010 Supplemental includes $19 billion to support 
an average troop level in Afghanistan of 84,000 U.S. troops--16,000 
higher than the 68,000 assumed in the enacted fiscal year 2010 budget. 
Troop levels are expected to reach 98,000 by September 30, 2010. The 
additional troops will consist of: Two Army counterinsurgency Brigade 
Combat Teams (BCTs); an Army Training BCT; a USMC Regimental Combat 
Team (RCT); and enablers such as Explosive Ordnance Disposal teams.
    The supplemental also includes $1.1 billion--on top of the $11.3 
billion already enacted--to field and sustain critically important 
lifesaving MRAPs and M-ATVs for troops already there and for the 
additional forces being deployed this fiscal year.
Fiscal Year 2011 Overseas Contingency Operations
    To fund military operations in Afghanistan and Iraq in fiscal year 
2011, we are requesting $159.3 billion, comprised of these major 
categories:
  --Operations ($89.4 billion).--Incremental pay for deployed troops, 
        subsistence, cost of mobilizing Reserve Component personnel, 
        and temporary wartime end-strength allowances.
  --Force Protection ($12 billion).--Body armor, protection equipment, 
        and armored vehicles to protect forces--including the rapid 
        deployment and sustainment of MRAPs and M-ATVs.
  --IED Defeat ($3.3 billion).--To develop, procure, and field measures 
        to defeat improvised explosive devices threatening U.S. and 
        coalition forces.
  --Military Intelligence ($7 billion).--To enhance U.S. intelligence 
        capabilities and operations including ISR.
  --Afghan Security Forces ($11.6 billion).--To build and support 
        military and police forces capable of conducting independent 
        operations and providing for Afghanistan's long-term security.
  --Iraqi Security Forces ($2 billion).--To continue building and 
        sustaining Iraq's efforts to defend its people and protect its 
        institutions as the United States removes troops by the end of 
        2011.
  --Coalition Support ($2 billion).--Reimbursements and logistical 
        sustainment for key cooperating nations supporting U.S. 
        military operations.
  --Commander's Emergency Response Program (CERP) ($1.3 billion).--To 
        provide flexible funds for commanders in the field to finance 
        urgent humanitarian and reconstruction needs.
  --Reconstitution/Reset ($21.3 billion).--To fund the replenishment, 
        replacement, and repair of equipment and munitions that have 
        been consumed, destroyed, or damaged due to ongoing combat 
        operations. This request includes funding to procure one Joint 
        Strike Fighter aircraft to replace the combat loss of an F-15.
  --Military Construction ($1.2 billion).--To expand the logistical 
        backbone and operational foundation for our fighting forces.
  --Temporary Military End Strength ($2.6 billion).--To support 
        temporary end-strength increases in the Army and Navy for 
        ongoing military operations.
  --Non-DOD Classified Programs ($5.6 billion).--To fund non-DOD 
        classified activities that support ongoing military 
        operations--the President's counter-terrorism strategy in 
        Afghanistan and Pakistan, and the drawdown of U.S. forces in 
        Iraq.
Iraq Force Levels
    This request supports the President's goal of a responsible 
drawdown of U.S. forces and transfer to full Iraqi responsibility and 
control. Troop levels in Iraq are projected to decrease to 50,000 by 
August 31, 2010. Further reductions will occur in accordance with the 
U.S.-Iraq Security Agreement. The projected forces levels would be: Six 
Advisory and Assistance Brigades (AABs) by August 31, 2010; and six 
AABs for the first part of fiscal year 2011, decreasing to 
approximately four AABs (approximately 35,000 personnel) in Iraq by the 
end of fiscal year 2011.
                               conclusion
    Mr. Chairman, my thanks to you and members of this committee for 
all that you have done to support our troops and their families. I 
believe the choices made and priorities set in these budget requests 
reflect America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in while making the investments 
necessary to prepare for threats on or beyond the horizon.
    Thank you.
STATEMENT OF ADMIRAL MIKE MULLEN, U.S. NAVY, CHAIRMAN, 
            JOINT CHIEFS OF STAFF

                           BUDGET SUBMISSION

    Admiral Mullen. Chairman Inouye, Senator Cochran, 
distinguished members of this subcommittee, thank you for the 
chance to discuss the state of our military, as well as the 
President's fiscal year 2011 defense budget submission.
    As always, I greatly appreciate your extraordinary support 
of the men and women of the United States armed forces, their 
families, and the communities that do so much to help them. In 
particular, I thank you for your passing the fiscal year 2010 
supplemental request.
    Our men and women in uniform are well equipped, well 
trained, well paid, and receive the finest medical care in the 
world due in no small part to your dedication and stewardship. 
I am here today to secure your continued support.
    Secretary Gates has walked you through the major components 
of the budget submission, and I will not repeat them. Let me 
leave you, rather, with three thoughts worth considering as you 
prepare to debate the details.
    First, there is a real sense of urgency here as we work to 
win the wars we fight. We have more than 200,000 troops 
deployed in harm's way right now and another 150,000 or so 
deployed in support of other security commitments around the 
world.
    For the first time since 2003, we have more troops in 
Afghanistan than in Iraq, where we remain on pace to draw down 
to roughly 50,000 troops by the end of August. The bulk of the 
30,000 additional forces the President authorized for 
Afghanistan are in country, and the remainder, less than 
10,000, will arrive in the next 2 months.
    These forces are now and will continue to be focused on 
operations in the central Helmand Valley, and Marjah and 
Kandahar specifically. You have, I am sure, been keeping 
abreast of what we are trying to achieve there, but I think it 
is important here to just summarize.
    Kandahar is the birthplace of the Taliban insurgency. It is 
far--it is from there that they have tried to spread their 
influence across Afghanistan, and it is from there that they 
desire to rule once again. I think it is safe to say that they 
still believe in their cause.
    In and around Kandahar they train, equip, plan, and 
intimidate. Just the other day, in a village not far away, 
these people lynched a small boy of 7, claiming he was a spy 
for the coalition.
    I know very well that in a counterinsurgency you fight not 
for the territory, but for hearts and minds. But it is from 
Kandahar that the Taliban attempt to control the hearts and 
minds of the Afghan people. It is my belief that should they go 
unchallenged there and in the surrounding areas, they will feel 
equally unchallenged elsewhere. As goes Kandahar, so goes 
Afghanistan.

                           SECURITY OUTPOSTS

    Afghan and coalition efforts there have already begun. 
Indeed, they have been underway for several months, consisting 
primarily of what we call shaping activities--kinetic strikes 
against Taliban targets and their facilities, as well as 
meetings with tribal elders aimed at securing their support. 
You saw President Karzai down there just this past weekend, 
holding a share of his own and completing the effort of getting 
local backing.
    We turn now to the all-important task of improving 
security. With Afghans in the lead, we will bolster a police 
presence at security outposts and checkpoints in and around the 
city. We will establish freedom of movement along the Ring Road 
and build a bypass south of Kandahar. And we will better 
control access to the city itself along its main arteries.
    None of this will be easy. None of this will be bloodless, 
as events last week grimly attest. But all of it will depend 
heavily on the continued growth and development of competent 
and well-led Afghan national security forces, as well as 
tangible and achievable political outcomes. Securing Kandahar--
or rather securing the people of Kandahar--is not a military 
objective. It is a social, political, and economic objective 
for which other agencies and other nations are needed and 
through which Afghan leadership will be vital.
    I am comfortable with the progress to date and the 
sequencing that we are following. But I am also mindful of the 
need to monitor our progress continually, to stay flexible, and 
to adjust accordingly.
    That leads me to the second thing I would like you to 
consider--proper balance. Winning our current wars means 
investment in this hard-won irregular warfare expertise, a core 
competency that should be institutionalized and supported in 
coming years. But we still face traditional threats from 
regional powers who possess robust regular and in some cases 
nuclear capabilities, and so we must also maintain and sustain 
our conventional advantages.
    In the air, this means sufficient strike aircraft and 
munitions capable of assuring air superiority. At sea, it means 
having enough ships and enough sailors to stay engaged globally 
and to keep the sea lanes open. On the ground, it means 
accelerating the modernization of our combat brigades and 
regiments. On the whole, it means never having to fight a fair 
fight.
    Again, it is about balance, about deterring and winning the 
big and small wars, the conventional and the unconventional--
two challenges, one military.

                           ADVOCACY PROGRAMS

    But where balance is probably most needed is in the 
programs and policies concerning our most important resource, 
our people. And that is my final point. This budget builds upon 
the superb support you and this Department have provided our 
troops and their families, stretched and strained by nearly 
constant combat, many of them on their fifth, sixth, and some 
even their seventh deployments.
    Our men and women are, without question and almost 
inexplicably, the most resilient and battle-ready force in our 
history. We are turning away potential recruits, so good is our 
retention and so attractive are our career opportunities. Yet 
we keep seeing an alarming rise in suicides, marital problems, 
prescription drug addictions, and mental health problems within 
our ranks.
    Deborah and I meet regularly with young troops and their 
spouses. And though proud of the difference they know they are 
making, quite frankly, many of them are worried about their 
futures, their livelihoods, their children.
    And so, you will see in this budget increases for family 
support and advocacy programs, and you will see a boost in 
warfighter and family services to include counseling, military 
spouse employment, and care for our wounded, ill, and injured. 
We are also pushing to dramatically increase the number of 
mental health professionals on staff and advance our research 
in traumatic brain injuries and post traumatic stress.
    We know the strain of frequent deployments causes many 
problems. But we don't know yet fully nor understand fully how 
or to what extent. So even as we work hard to increase dwell 
time, time at home, aided in part by the additional temporary 
end strength you approved last year for the Army, we will work 
equally hard to decrease the stress of modern military service.
    Indeed, I believe, over time, when these wars are behind 
us, we will need to look closely at the competing fiscal 
pressures that will dominate discussions of proper end strength 
and weapons systems. A force well suited for long-term 
challenges and not necessarily married to any current force 
planning construct will remain vital to our national security.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. And I look forward to your 
questions.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Chairman Inouye, Senator Cochran, distinguished members of the 
Committee; it is my privilege to report on the posture of the United 
States Armed Forces.
    I begin by thanking you for your support of our servicemen and 
women, their families, and the communities that do so much to help 
them. We can never repay them for their sacrifices, but we can support 
them. As leaders, we necessarily debate the best course of action to 
secure our nation in a dangerous world. But our servicemen and women do 
not hesitate. When the decision is made, they go where they are needed 
most, where dangers must be confronted and adversaries defeated. I'm 
humbled as I visit them around the world, defending our nation in very 
trying conditions. They care deeply for this country, and they care 
most that they have the nation's clear backing. The support of the 
Congress and the American people remain essential to their strength and 
resolve. I am grateful for your unwavering recognition of the service 
of our forces and their families.
    Today's Armed Forces are battle-hardened, capable, and ready to 
accomplish the nation's missions. They are the most combat experienced 
yet most compassionate force we have ever fielded, and continue to 
learn and adapt in ways that are truly remarkable. They are the best I 
have ever seen. I thank the Committee for taking the time to understand 
the stresses, strains and concerns of our service members. Your 
continuing legislative support of our Armed Forces makes all the 
difference.
                            key developments
    Over this past year, our wartime focus has shifted to Afghanistan 
and Pakistan. As I have testified before the Congress on many 
occasions, the threats to our national security from al Qaeda and 
affiliated movements based in the Afghanistan-Pakistan region remain 
real and persistent. We require a stable and reasonably secure 
Afghanistan and Pakistan--inhospitable to al Qaeda's senior leadership, 
capable of self defense against internal extremist threats, and 
contributors to regional stability.
    Our increasing focus on Afghanistan and Pakistan confirmed the 
border region to be al Qaeda's center of gravity. It also showed the 
situation to be more dire than previously understood. The Afghan-
Taliban's post-2005 resurgence produced a widespread paramilitary, 
shadow government and extra-judicial presence in a majority of 
Afghanistan's 34 provinces. The Tehrik-i-Taliban Pakistan (the Pakistan 
Taliban) showed itself to be a bold and audacious enemy of the 
Pakistani people, ruthlessly seizing control of Swat in the late spring 
of 2009 and conducting a brutal series of attacks across the nation in 
recent months. Multiple Pakistani military operations against the 
Taliban that began last year have reversed their territorial gains. 
Throughout this year, we have constantly and carefully reviewed our 
objectives for the region. The decision to authorize an additional 
21,500 American forces into Afghanistan in early 2009, followed by the 
President's commitment of 30,000 additional forces in December set 
conditions to reverse Afghan-Taliban gains. It will also enable the 
government of Afghanistan to build the security and governance 
necessary to eliminate the insurgency as a threat. With a new 
leadership team, appropriate resources, improved organization, and a 
better strategy, we are confident of success against al Qaeda and the 
Taliban. Success will not come easily or swiftly, but we will succeed. 
The hardest work to achieve our regional aims remains ahead of us, 
especially the last part of 2010 and into 2011.
    Al Qaeda's central leadership has suffered significant losses over 
the past several years, to include the likely death of one of their 
founders, Sheik Sa'id al-Masri. Though its operational capacity has 
declined, al Qaeda's senior leaders remain committed to catastrophic 
terrorist attacks against the United States and our allies, as 
evidenced by the intended attack against New York City that was 
disrupted in Denver and the recent failed attempt to detonate a 
vehicle-borne bomb in Times Square. Actions in the Pakistan-Afghanistan 
border area, in Iraq, and elsewhere have met with marked success. That 
said, al Qaeda sought new approaches to plot attacks. The failed 
Christmas Day airline bombing attempt over Detroit was crafted by and 
ordered from those in Yemen's growing safe havens. Both incidents 
demonstrate the resolve of al Qaeda and its ever-evolving strategy. 
While the danger remains real, like-minded governments and people 
around the world--including those in the Muslim community--increasingly 
reject al Qaeda, its affiliates and what they stand for. Most want a 
brighter future for their children and grandchildren, not al Qaeda's 
endless war and intolerance. They see daily evidence that al Qaeda and 
its affiliates deliberately target and kill thousands of innocent 
Muslims in cold blood. They know al Qaeda continues a ruthless and 
deadly campaign against innocent people in Iraq, Pakistan, Afghanistan, 
Saudi Arabia, Kenya, Indonesia, and elsewhere. Continued progress 
against violent extremism will require enhanced, but prudent, 
partnerships with key governments and movements, including consistent 
efforts to counter al Qaeda's bankrupt message.
    The actions of the Iranian government are of grave and growing 
concern. Tehran's leadership remains on a trajectory to acquire a 
nuclear capability--an issue of global concern--in defiance of 
international demands and despite widespread condemnation. Iran's 
government continues to support international terrorist organizations, 
and pursues a coercive and confrontational foreign policy. These 
efforts exist alongside growing divisions between elements of the 
government and between the government and the people. These events and 
conditions risk further destabilizing an already unstable region.
    Established threats also demonstrated they could flare at any 
moment, testing our resolve and dedication to long-standing allies. 
North Korea's violation of the Armistice Agreement by sinking of a 
Republic of Korea corvette illustrates the dangerous nature of that 
still ongoing conflict. We must be ready to stand shoulder-to-shoulder 
with free countries and face down aggression when the situation demands 
it.
    The unpredictable has also galvanized our military, requiring a 
significant force commitment in Haiti, making it one of our most 
significant humanitarian missions in history. Nearly 20,000 American 
troops deployed to support the Government of Haiti, the United Nations, 
USAID and over 20 American and international aid agencies from January 
through the late spring. From port openings, to security and 
distribution of supplies, U.S. Southern Command's military Joint Task 
Force performed admirably. Furthermore, your military was called on to 
help contain one of the worst environmental disasters in the history of 
the United States. From aircraft moving personnel and equipment as well 
as spraying dispersant, to imagery, sonar and communication support, 
the Department of Defense has provided whatever equipment and 
technology has been requested. Over 1,500 National Guardsmen are 
currently assisting with the oil spill, and the Administration has 
authorized up to 17,500 National Guard troops from Gulf Coast states to 
respond as needed.
    Several recent policy initiatives have provided the military with 
new direction. We concluded negotiations with Russia for a START 
follow-on treaty, which will reduce nuclear weapons stockpiles while 
maintaining U.S. deterrence. As I have testified, I strongly endorse 
this treaty and ask you to ratify it. We also completed the Nuclear 
Posture Review, with significant implications for the military's 
nuclear posture. And, as mandated by the Congress, we have reviewed 
current and future threats and developed appropriate strategies in the 
Quadrennial Defense Review, which supports the President's recently 
released National Security Strategy. This Security Strategy rightly 
sharpens our focus on countering weapons of mass destruction and 
proliferation of such weapons, particularly to terrorist groups. 
Achieving all the goals of these new policy initiatives will require 
improvement in both our conventional and nuclear forces. We look 
forward to working with the Congress to forge a common understanding of 
the threats our nation faces, and how best to counter them.
    Recent events have reminded us of the importance of sustaining 
strong alliances. Our NATO allies and other non-NATO partners expanded 
support in Afghanistan over the past year. We now work there with more 
than 40 countries and over 40,000 international troops. Although the 
world avoided a widespread economic depression in 2009, many of our 
partners remain financially challenged and may spend less on combined 
security and stabilization efforts. Our close alliance with Japan, in 
particular, suffered strain around basing rights in Okinawa, but we 
seek to move forward with them in implementing a plan. The recent DPRK 
torpedo attack reinforced the importance of a robust U.S. military 
presence on the Korean Peninsula and in the broader region. As we stand 
by our close allies, I am confident that we can work through these 
issues, but it is a reminder that we should neither take our strongest 
allies for granted, nor underestimate the persistent tensions and 
threats.
    Against this backdrop, the strategic priorities for the military 
remain unchanged from my last annual testimony before Congress: 
defending our interests in the broader Middle East and South/Central 
Asia; ensuring the health of the Force, and balancing global strategic 
risk. With your ongoing help and support, we continue to address each 
of these priorities.
 defend our interests in the broader middle east and south/central asia
    The Broader Middle East and South/Central Asia, remains the most 
dangerous region of the world.
    Our main effort within the region has changed. The government of 
Iraq is taking firm control of its own security. We have shifted our 
priority to Afghanistan and Pakistan, long under-resourced in many 
ways. That shift in focus includes the movement of some quarter of a 
million troops and their equipment in and out of the CENTCOM theater in 
the space of several months. This is a herculean logistics effort, but 
one we are successfully executing. Afghanistan is approaching parity 
with Iraq for the first time since 2003 as the location with the most 
deployed American forces.
    Despite this surge, the security situation in both Afghanistan and 
Pakistan remains serious. The Afghan-Taliban have established shadow 
governments--featuring parallel judicial, taxation and local security/
intimidation systems--in a majority of Afghanistan's 34 provinces. 
Attacks by the Taliban have become far more numerous and more 
sophisticated. We are now establishing conditions--with military forces 
and expanded civilian agency presence--to reverse the Taliban's 
momentum. Yet we face both a resilient Taliban insurgency and an Afghan 
public skeptical of their government's good will, capacity and 
capability.
    As of mid-June 2010, we have moved roughly 20,000 troops to 
Afghanistan, with the remainder of the 30,000 increase arriving as 
rapidly as possible over the summer and early fall, making a major 
contribution to reversing Taliban momentum this year. The remainder of 
these forces will join some 90,000 U.S. forces and more than 40,000 
Coalition forces already in Afghanistan--all of which have undertaken a 
fundamental shift in how they are being employed across the country. 
Our troops are now focused on protecting key population centers--
separating them from the intimidation and influence of the Taliban. 
Simultaneously, they are training and partnering with Afghan security 
forces to enable Afghans to assume lead security for their own country 
as soon as possible. The recent peace jirga was an important Afghan-led 
step in this process. The next 12 months must be the time to reverse 
insurgent momentum and assess partnership progress.
    The brave men and women we charge to implement this fundamental 
shift in Afghanistan security strategy need the strong support of this 
Congress. We need your assistance in key areas like funding for Afghan 
National Security Forces, who will ultimately bring about success and 
security. In the short term, the Commander's Emergency Response Program 
is needed to adequately protect the population, and enhanced special 
construction authorities and equipment procurement accounts will be 
critical to putting enough force on the ground to make a difference.
    The border area between Pakistan and Afghanistan is the epicenter 
of global terrorism. This is where al Qaeda plans terrorist attacks 
against the United States and our partners--and from where the Taliban 
leadership targets coalition troops in Afghanistan. Pakistan's ongoing 
military operations against extremists in these areas are critical to 
preventing al Qaeda and associated groups from gaining ground.
    In Pakistan, the extremist threat, a fractious political system, 
economic weakness and long-standing tensions with India continue to 
threaten stability. We are working to rebuild our relationship with 
Pakistan and re-establish trust lost between our two countries. We aim 
to demonstrate to Pakistan--in both our words and our actions--that we 
desire a long-term relationship. The recent Strategic Dialogue with 
Pakistan, hosted by the State Department and supported by the Defense 
Department, reflects the value both our countries place on the 
friendship and support of the other. Our recent concerns with 
Pakistan's approach to U.S. visa requests is further testimony to the 
challenges of the relationship; and, it will affect increased capacity 
for counterterrorism and counterinsurgency, to include support for 
development projects. The State Department's Pakistan Counterinsurgency 
Capability Fund and the DOD's Coalition Support Funds allocated for 
Pakistan are essential components of our support to this critical ally. 
Enhanced contact and engagement between Pakistan and the United States 
is a critical component of a maturing, long-term partnership. Thus, we 
are focusing on expanded military education exchange programs, joint 
training opportunities and especially Foreign Military Sales and 
Foreign Military Financing. The State Department budget requests 
additional funds for these critical partnership endeavors.
    South Asian security tensions and political dynamics significantly 
impact our objectives in Afghanistan and Pakistan. The longstanding 
animosity and mistrust between Pakistan and India complicates regional 
efforts. Yet India and Pakistan must both be our partners for the long 
term. Bilateral military relationships are an essential component in a 
wide array of cooperative activities. We must recognize this and 
address it as part of our policy. While we acknowledge the sovereign 
right of India and Pakistan to pursue their own foreign policies, we 
must demonstrate our desire for continued and long-term partnership 
with each, and offer our help to improve confidence and understanding 
between them in a manner that builds long-term stability across the 
wider region of South Asia. As part of our long-term regional approach, 
we should welcome all steps these important nations take to revive a 
process to resolve their differences over Kashmir.
    While Afghanistan and Pakistan remain the critical terrain, we must 
remain vigilant in denying al Qaeda unfettered physical safe havens 
elsewhere across the Broader Middle East and South Asia, including 
Northern and Eastern Africa. These efforts will not require tens of 
thousands of American troops. Instead, we can work quietly and 
persistently with regional allies and Coalition partners to deny al 
Qaeda territory from which to plot, train, and project global terror 
operations. Similarly, we continue to undertake collaborative, 
supporting efforts with like-minded governments across the broader 
Middle East. We work to help the Yemeni government build the 
information base and the military capacity necessary to combat the al 
Qaeda threat within its borders. We applaud Yemeni efforts to confront 
al Qaeda operatives, and continue to offer Sana'a the support necessary 
to achieve this aim. We have worked with the concerned neighbors of 
Somalia to contain the worst aims and objectives of the Islamic Courts 
Union and al Shabaab. This must continue. In these areas--as well as 
others including Indonesia and the Philippines--our military engages 
with willing partners in a manner detrimental to al Qaeda's 
aspirations. We undertake these partnerships in conjunction with those 
from American intelligence, diplomatic and economic organizations. I 
must stress that in today's environment, training and equipping partner 
security forces to defend and protect their own territory and coastal 
waters is a core national security objective. We appreciate Congress' 
continuing support for these important undertakings.
    The Iranian government continues to be a destabilizing force in the 
region. Tehran's leadership remains on a trajectory to acquire a 
nuclear capability, in defiance of its international obligations. 
Indeed, the United Nations just declared Iran had sufficient fissile 
material to build two nuclear devices. A nuclear Iran could spark a 
regional arms race or worse. It will be profoundly destabilizing to the 
region, with far-ranging consequences that we cannot fully predict. 
Tehran also continues to provide a range of support to militant 
organizations, including HAMAS and Hizbollah, fomenting instability 
outside its borders. Its increasingly reckless nuclear and foreign 
policy agenda is now playing out against the backdrop of a slowing 
economy and profound internal turmoil. I remain convinced that 
exhaustive--and if necessary coercive--diplomacy with Iran remains the 
preferred path to prevent these grave outcomes. Iran faces an 
increasingly clear choice--cooperate with the international community 
or face consequences. To this extent, the Joint Chiefs, Combatant 
Commanders, and I support all efforts to steer the government of Iran 
off of its hazardous course. However, as with any potential threats to 
our national security, we will have military options ready for the 
President, should he call for them.
    Iraq continues to progress, although more is needed. U.S. 
partnership with Iraqi security forces has been fundamental to this 
progress since 2005. Al Qaeda is still present and has carried out 
several large-scale attacks. Iraqi Security Forces and government 
leaders responded to them vigorously yet professionally. Further, the 
Iraqi people show no renewed appetite for the brutal tactics of Al 
Qaeda; I believe Iraqis are now more focused on developing their 
economy than domestic security threats. Politically, the March 2010 
elections were assessed as legitimate and were largely free of 
violence. Though the government transition has been drawn out beyond 
our original planning assumptions, there has been no degradation in the 
security situation.
    In turn, U.S. Forces--Iraq (USF-I) will draw down to roughly 50,000 
and end our combat mission by August 31, 2010, as highlighted by our 
recent turnover of the Green Zone to the Iraqi government. Our security 
partnership will then shift to training, advising, and supporting Iraqi 
security forces, including continued participation in NATO's Training 
Mission--Iraq. More broadly, the U.S. military will transition from a 
supported to a supporting effort in Iraq as we normalize relations. The 
State Department and other civilian agencies will increasingly be the 
face of U.S. efforts in Iraq. The U.S. military will strongly support 
their leadership. We appreciate the inclusion of the Equipment Transfer 
Provision in the 2010 National Defense Authorization Act. These 
transfers are a critical component of America's continuing actions as a 
reliable partner in Iraq's assumption of a responsible and Baghdad-led 
security future.
                          health of the force
    Our nation's security is founded upon a well-trained, well-equipped 
all volunteer force. We must care for our people and their families, 
reset and reconstitute our weapon systems, and take on new initiatives 
that increase wartime effectiveness.
Care for our People
    Our servicemen and women, their families, and their communities are 
the bedrock of our Armed Forces. Their health, resilience and well-
being are at the heart of every decision I make. Frankly, investing in 
our people remains the single greatest guarantee of a strong military. 
Competitive pay, selective bonuses, expanded access to mental 
healthcare, continued health benefits for tens of thousands of our 
Wounded Warriors--those with seen and unseen wounds--and their families 
are critical to this investment.
    Our military families and communities continue to play a unique and 
growing role in our national security fabric, one not seen in more than 
a generation. They support us and sustain us in ways we do not yet 
fully understand. They deserve the admiration and support of a grateful 
nation. My conversations with spouses and children around the world 
tell me these concerns center on caring for those affected by these 
wars, child care, education, health and employment issues.
    We remain competitive in attracting the country's best talent. For 
the first time in the history of the All Volunteer Force, the Active 
Duty, Guard and Reserve components all exceeded annual recruiting goals 
for 2009. This success was reflected in the quality of our recruits as 
well as their numbers. Ninety-six percent of our accessions earned a 
high school diploma or better. Each Service also met or exceeded its 
2009 retention goals. Our ability to recruit and retain underscores the 
fact that this is the best military I have seen in my 42-year career. 
While competitive pay is a critical factor in this success, it does not 
stand alone. Other critical ``people'' programs supported by the 
Congress--like the new GI Bill, adequate housing, access to quality 
schooling for military children, adequate child care, and attractive 
family support centers--come together to make the harsh burdens of 
military life acceptable.
    We must not forget the challenges that this excellent All Volunteer 
Force faces every day. More than 8 years of wartime operations have 
come at a cost. Most Army brigade combat teams are preparing for their 
fourth major deployment since 9/11, with some of them preparing for 
their fifth--unprecedented in our history. The Marines Corps is in the 
same boat--their deployments are shorter but more frequent, and their 
pace is grueling. Our people spend less time at home, and this shorter 
dwell time between deployments does not allow for respite or for 
training along the entire spectrum of military operations. Our 
irregular warfare expertise--hard won over the last 8\1/2\ years--has 
come at a price. Conventional war fighting skills have atrophied and 
will require attention. Yet this overdue attention will have to wait. 
The gains we anticipate from the coming draw-down in Iraq will be 
absorbed by our necessary efforts in Afghanistan for at least 2 more 
years. Resetting the force requires significant effort and sustained 
commitment now and post-conflict. We will continue to rely heavily on 
our Navy and our Air Force.
    Dwell time--the ratio of time deployed to time home--remains a 
concern, and one we must manage closely this year and into 2011. Dwell 
time for the Army is at 1:1.2 and the Marine Corps is slightly better 
at 1:1.5. We will not see significant dwell time improvements across 
all services until 2012. Deployment rates for Special Operations Forces 
(SOF) and other low-density, high-demand specialties also remain very 
high. While our force is strong and resilient, these trends cannot 
continue indefinitely.
    The challenges remain significant, but are manageable thanks to the 
support of Congress for increased end-strengths in the Army and Marine 
Corps. We are only now starting to feel the positive impact from these 
2007 authorized increases in the baseline force--stabilizing deployment 
rates and dwell times. Coupled with the additional temporary increase 
of 22,000 troops within the Army, Congressional support for our wartime 
military manning needs has been critical.
    The stresses of protracted war extend beyond the deployments 
themselves. Our number of dead and wounded continues to rise, as does 
the strain on their families and their communities. Other social costs 
of war--divorce, domestic violence, depression, and post-traumatic 
stress syndrome--are unacceptably high and continue to increase. We 
have much more to do.
    Suicide deserves special attention. Despite our best efforts, 2009 
witnessed a record level of suicides, with increases in both the Active 
and Reserve components. We have not begun to study suicides among 
family members and dependents. While there is not one cause for 
increased service-member suicides, we know enough to be certain that 
better prevention training programs for leadership, for at-risk service 
members, and robust funding and attention toward sober study of the 
problem are absolutely necessary.
    We should provide a lifetime of support to our veterans. I urge you 
to continue funding the programs supporting those that have sacrificed 
so much, including those aimed to reduce veteran homelessness and that 
focus on rural healthcare options. The demands on our active and 
veterans care services will continue to grow, and require the attention 
found in this budget. Yet we must conceive of Wounded Warrior Support 
in a manner that goes beyond the traditional institutions. Public, 
private, and individual sources of help represent a ``sea of goodwill'' 
towards our veterans. Our focus must be more on commitment than 
compensation; and more attuned to transition and ability than upon 
disability. Our veterans want the opportunity to continue to serve, and 
we should enable that opportunity.
Reset and Reconstitute
    My concerns about the health of our force go beyond our people. Our 
systems and capabilities are under extraordinary stress as well. The 
high pace of operations is consuming our capital equipment much faster 
than programmed. The Air Force and Navy have been essentially 
performing non-stop, global operations for 19 years, since Operation 
Desert Storm. The Army and Marine Corps have had the majority of their 
combat forces and equipment in the combat theater of operations for 
nearly 6 years. The unforgiving terrain of Afghanistan and Iraq causes 
extensive wear and tear, especially on our ground vehicles, 
helicopters, and supporting gear.
    The demands of the current fight mean we must increase capacity in 
several areas, including rotary wing, ISR, electronic warfare and SOF. 
We sustain necessary rotary wing capacity through the addition of two 
active Army Combat Aviation Brigades, continued production of the tilt-
rotor V-22, as well as our helicopter force, and a seventh SOF 
helicopter company. I support this budget's rebalancing in favor of 
more commercial airborne ISR capabilities for Combatant Commanders. 
This budget continues increasing the number of unmanned combat air 
patrols, coupled with the ability to fully exploit the intelligence 
coming from these platforms. We should expand current technologies to 
fill electronic warfare shortfalls and develop next-generation 
technologies for manned and unmanned aircraft.
New initiatives
    Too many of our processes and programs remain geared to a peacetime 
clock, but several new initiatives focused on supporting our war 
efforts show promise. I strongly support the Afghanistan/Pakistan Hands 
program and ongoing initiatives that increase the number and skill of 
our civil affairs and psychological operations personnel. I also 
strongly back the USAF's initiative to use light aircraft for enhanced 
capacity building of key allies and partners for light mobility and 
attack.
    Our current acquisition process remains too unwieldy and 
unresponsive. Adding 20,000 more acquisition experts by 2015 will help, 
as will increasing the rigor and efficiency of our internal processes. 
Stability in our programs, comprehensive design reviews, better cost 
estimates, more mature technology and increased competition will make 
the process more responsive. Once fielded, our systems are the finest 
in the world, because of the experienced and capable program managers 
and engineers building them. We need more of managers and engineers, 
and they need better support and leadership.
    Finally, I am growing concerned about our defense industrial base, 
particularly in ship building and space. As fiscal pressures increase, 
our ability to build future weapon systems will be impacted by 
decreasing modernization budgets as well as mergers and acquisitions. 
We properly focus now on near-term reset requirements. However, we may 
face an eroding ability to produce and support advanced technology 
systems. Left unchecked, this trend would impact war fighting 
readiness. The Department, our industry leaders, and the Congress need 
to begin considering how to equip and sustain the military we require 
after our contemporary wars come to an end.
                    balancing global strategic risk
    Balancing global risk requires sustained attention to resetting the 
force. It also means making prudent investments to meet the challenges 
of an increasingly complex and challenging worldwide security 
environment. As the President recently noted, it is the United States 
that has helped underwrite global security with the blood of our 
citizens and the strength of our military. America's interests are 
global, and our military must secure these interests. Where possible, 
we will act first to prevent or deter conflict. When necessary, we will 
defeat our enemies. And whenever able, we will work in concert with our 
many allies and partners.
    For many decades, but especially since 1989, U.S. conventional 
overmatch has guaranteed our security and prosperity, as well as that 
of our many allies and partners. We have helped protect expanding 
global commons. We have seen the likelihood of conventional war between 
states drop. And we have used the tools designed for war not against 
human adversaries, but instead to support humanitarian operations. Most 
recently in Haiti, but elsewhere over the past 60 years, the military's 
unmatched capacity to transport goods and services have provided relief 
in the face of tragic natural disasters. In short, many nations have 
benefited from an extraordinarily capable and ready U.S. military, even 
as we have defended our own interests.
    That capability must continue to span the full range of military 
operations. But in this post-Cold War era--one without a military near-
peer competitor--we should not be surprised that adversaries will 
choose asymmetric means to confront us. They will seek to use both old 
and new technology in innovative ways to defeat our advantages. 
Terrorism will remain the primary tactic of choice for actors to 
conduct warfare ``on the cheap''. Both state and non-state actors will 
seek weapons of mass destruction through proliferation. Increasingly, 
states will attempt to deny our ability to operate in key regions, 
through the development and proliferation of ballistic missile systems, 
or by exploiting space and cyberspace. Taken together, these are 
diverse threats that require a broad set of means.
    Winning our current wars means investment in our hard won irregular 
warfare expertise. That core competency must be institutionalized and 
supported in the coming years. However, we must also stay balanced and 
maintain our advantage in the conventional arena. In the air, this 
advantage requires sufficient strike aircraft and munitions capable of 
assuring air superiority and holding difficult targets at risk. At sea, 
we require sustained presence and capacity supported by a robust ship 
building program. On the ground, we must accelerate the modernization 
of our combat brigades and regiments. Without question, these are 
expensive undertakings. But our present security challenges demand 
them.
    While maintaining our conventional edge, we also must address the 
safety and surety of our nuclear forces, even as we seek to reduce 
them. Our Nuclear Posture Review provides the guidance and vision on 
how to accomplish this laudable and historic goal. We must invest in 
our nuclear infrastructure and modernization programs in order to 
ensure our smaller nuclear force is safe, secure, and reliable.
    Countering weapons of mass destruction means investing in new 
research, securing nuclear materials, and preparing a layered defense. 
Improving our ability to neutralize and render safe critical targets is 
vital. We maintain the ability to respond to their use against our 
citizens. But while improving responsiveness to the use of such weapons 
is critical, it is more important to counter their proliferation and 
deter their use. I advocate diverse investments in nuclear forensics 
and expanding our biological threat program, in addition to continuing 
investment in the highly effective counter-proliferation programs that 
are central to our success in this critical endeavor. These relatively 
small funds will have a disproportionately large positive impact on our 
security.
    The ability of potential adversaries to challenge our freedom of 
movement and the peaceful use of the global commons has grown in recent 
years. Anti access-technologies and capabilities are proliferating, 
which could prevent us from deterring conflict in some regions. We must 
preserve our ability to gain access even when political, geographical 
or operational factors try to deny us the same. This requires funding 
for improvements to our missile defense capabilities, expanded long 
range and prompt global strike systems, and hardened forward bases.
    Threats in cyberspace are increasing faster than our ability to 
adequately defend against them. Cyber attacks can cripple critical 
infrastructure, impose significant costs, and undermine operational 
capabilities. Meanwhile, space-based systems critical to our global 
awareness and connectivity are aging and have proven vulnerable. A 
determined enemy could degrade existing space systems, significantly 
impacting our strategic intelligence and warning capabilities, as well 
as global positioning and communication. I welcome your support for the 
recently stood-up U.S. Cyber-Command (CYBERCOM) and its associated 
funding.
    Rising states present both a strategic challenges as well as 
strategic opportunities. China's economic strength, military 
capability, and global influence continue to grow. While our military 
relations continue to develop, we seek much more openness and 
transparency from China regarding the pace and scope of its 
conventional and nuclear force modernization. We also believe that 
China can--and should--accept greater responsibility for and partner 
more willingly to safeguard global prosperity and security. We are 
looking to China to join us in reacting to the Cheonan sinking in ways 
that make clear to North Korea that its aggressive behavior is 
unacceptable. We seek for Beijing to work more collaboratively when 
determining fair access to transportation corridors and natural 
resources. China also should demonstrate greater clarity in its 
military investments. Absent a more forthcoming China in these critical 
areas, our military forces must prudently consider and plan based on 
known Chinese capabilities and actions, in addition to its stated 
intentions. As we work with Beijing to establish a continuous military-
to-military dialogue to reconcile uncertainties and generate 
confidence, we will pursue common interests in agreed upon areas such 
as counter-piracy, counter-proliferation, search and rescue, 
humanitarian assistance and disaster relief. As a Pacific Rim nation 
with longstanding interests throughout the area, we will continue to 
play a vigorous regional role.
    Our present dialogue with Russia is multi-faceted. It acknowledges 
points of contention as well as opportunities to ``reset'' our 
relationship on a positive trajectory. We welcome Moscow's cooperation 
in reducing the number and role of strategic nuclear weapons. These 
discussions have been constructive, and I believe the resulting treaty 
will benefit the United States, Russia, and the world. Moscow has also 
helped us establish a supplemental logistics distribution line into 
Afghanistan. Russia also helped our diplomats pressure Iran, and we 
look toward Moscow to do even more in this process. On the other hand, 
Russia continues to reassert a special sphere of influence with its 
neighbors. The Russian military is simultaneously modernizing its 
strategic forces and many conventional forces.
    North Korea continues to present a security challenge in Asia, as 
evidenced by the recent sinking of a Republic of Korea corvette. Today, 
Pyongyang continues to pursue intercontinental ballistic missile 
technologies, develop nuclear technologies, and export weapons in 
contravention of international norms on nonproliferation, and of two 
United Nations Security Council resolutions. It also maintains an 
unfortunate and threatening posture toward our ally the Republic of 
Korea, and an unhelpful disposition toward our ally Japan.
    Of course, we can best defend our interests and maintain global 
order when we partner with like-minded nations. By forging close 
military-to-military relations with an expanding number of nations--
providing training, equipment, advice, and education--we increase the 
number of states that are interested and capable of partnering with us. 
While tending to long-term allies, we should also cultivate our 
relationships with other liked-minded powers around the world. Making a 
small investment now will pay dividends in reducing our security burden 
and global risk.
    We must also continue to work with our traditional Allies. NATO 
remains the most successful alliance in history, and our NATO Allies 
serve side by side with us in Afghanistan and elsewhere. Our 
obligations under Article 5 remain clear, and our commitment to 
defending against threats--wherever they may originate--to our security 
and that of our Allies is unwavering.
    We need full funding of Defense Theater Security Cooperation 
programs, and the many security assistance programs managed by the 
Department of State, particularly the International Military Education 
and Training program. Preventative strategies require providing foreign 
partners with the capacity to promote stability and counter-terrorism. 
With your help, we have made considerable strides in adapting our tools 
for security force assistance, but more is needed. I urge your 
continued support of the Global Train and Equip initiatives (under 1206 
authorities) as well as funding for special operations to combat 
terrorism (under 1208 authorities).
    The majority of threats facing the United States require integrated 
interagency and international initiatives. Supporting interagency 
cooperation programs, to include expanding the number of exchanges 
between the Department of Defense and other Executive Agencies, will 
improve interagency capacity to meet future security threats as well. 
Please urge your colleagues who oversee the Department of State to 
fully fund Secretary Clinton's requests. I ask the Congress to promote 
legislation that increases the expeditionary capacity of non-military 
Executive Agencies. Our future security concerns require a whole of 
government effort, not just a military one.
                               conclusion
    This past year witnessed significant achievements by America's men 
and women in uniform. Their efforts and sacrifices--as part of a 
learning and adapting organization--have sustained us through more than 
8 years of continuous war. Thanks to them we are in position to finish 
well in Iraq. Thanks to them, we can begin to turn the corner in 
Afghanistan and Pakistan. In conjunction with our many partner nations, 
they've provided humanitarian relief assistance to millions, helped 
contain a threatening H1N1 pandemic, expanded support to national law 
enforcement for enhanced border security, and disrupted terrorist 
sanctuaries worldwide. And, thanks to them, we have a global presence 
protecting our national security and prosperity.
    The demands of the present remain high, and our military role in 
national security remains substantial. This will continue for the 
foreseeable future. Yet as I have testified before this body in past 
appearances, the military serves America best when we support, rather 
than lead United States foreign policy.
    On behalf of all men and women under arms, I wish to thank the 
Congress for your unwavering support for our troops in the field, their 
families at home, and our efforts to rebalance and reform the force to 
assure that we win the wars we are in and are poised to win those we 
are most likely to face in the future.

    Chairman Inouye. Thank you very much, Admiral Mullen.
    I believe you are aware that the vote has started. That is 
why some of the members have left to vote, but they will be 
back.

                          JOINT STRIKE FIGHTER

    I would like to begin, Mr. Secretary, by asking a question 
on the Joint Strike Fighter (JSF). Your projection has been 
shown to have a few predictions that are not quite correct. For 
example, the cost has increased by, I believe, $109 billion. 
Your chief weapons buyer has indicated that there are many 
problems in the Strike Fighter testing program.
    My question is, with these errors, should we still go along 
with your insistence upon no alternative engine?
    Secretary Gates. Yes, sir, I believe that is the case. In 
fact, I believe it very strongly.
    First of all, we are talking about two different subjects 
here, the fighter itself and the alternative engine. We had an 
independent estimating team in 2008 that identified some 
difficulties in the development program. I added almost $500 
million--or you added almost $500 million at my request to that 
program.
    We did another independent estimating effort last fall that 
made it clear this was more than a 1-year problem, and we have 
completely restructured the program. We fired the program 
manager, replaced him with one of the most experienced 
acquisition uniformed officers in the military.
    We withheld $600 million plus from the contractor. We 
extended the development program. We slowed the production rate 
in the early years by 122 aircraft over a 3- or 4-year period. 
So we will have more aircraft--fewer aircraft that are 
completed while the development program is continuing. We have 
added three aircraft to the development program.
    So I think that we have taken a number of steps that are 
consonant with a restructuring of the program. We believe we 
have--because of these outside estimating efforts, we think we 
have a much better fix on the nature of the problem that we 
have faced.
    I would tell you it is not particularly a good news story, 
but I would point out that both the C-17 and the F-22 also went 
through restructurings early in the program because of 
problems.
    The good news, I would say, is that there hasn't been a 
single review that has discovered any fundamental technological 
or performance problems with the aircraft. It is meeting its 
performance parameters. What we think we have endured is 
primarily management and production problems, a lack of 
adequate execution on the part of the Defense Department 
itself.
    My favorite story here is the supplier where the F-35 is 
part of their factory. They have a number of aircraft. The F-35 
occupies 6 percent of the factory floor space, and we pay 70 
percent of the overhead for the factory. So we need to be a lot 
smarter about the way we execute this program.
    So I think that we have a good independent assessment of 
where we are. I think part of the problem with this program, 
frankly, over the last several years has been too rosy an 
estimate from the production program itself about how things 
were going. And I think we have a much more realistic approach 
now.

                            ALTERNATE ENGINE

    With respect to the alternate engine, we have had this 
discussion. We believe that this program will cost at least 
another $2.9 billion to bring it to the point where it could be 
competitive. We think that the current engine that General 
Electric (GE) is offering probably does not meet the 
performance standards that are required, and the taxpayer would 
be required to pay for any enhancement that would bring it up 
to the performance standards that we require.
    And we think a situation in which both competitors are 
guaranteed a win is not competition at all. My view is a 
competition is winner take all. And I think we have had that 
competition, and it is time to move on with the program.
    Chairman Inouye. Mr. Secretary, if I may follow up, we were 
under the impression that the testing program of the F-35 would 
be completed by 2012. And now we have been advised that it is 
going to slip to 2016.
    Secretary Gates. The dates that we have, Mr. Chairman, the 
latest information that I have is, first of all, we are on 
track to have a training squadron at Eglin Air Force Base in 
2011. The Marine Corps will begin to receive their first 
aircraft in 2012, the Air Force in 2013, and the Navy in 2014.
    Full operational capability for the Air Force and the Navy 
will be in 2016. But those services will begin to receive 
aircraft earlier.
    Chairman Inouye. I thank you very much.

                         HEALTHCARE PROJECTIONS

    I would like to ask the Admiral about healthcare 
projections that you have made--and I am pleased to hear 
those--but my time will be up soon.
    As you know that the ancient war, World War II, and the 
conflict today cannot be compared. For example, in my time, in 
my combat team, 4 percent were married and had dependents, 96 
percent were single. Today, I note that the Army, nearly 70 
percent have dependents, and that produces a big problem.
    Second, survivorship is sky high now because of your 
improvement in high technology and transport. Do you think that 
we are coping with these changes?
    Admiral Mullen. Sir, as I said in my opening statement, I 
think we have got the best healthcare system in the country. 
Where I have tried to focus on in addition to care, and we 
still have some challenges, is really the cost. And the cost 
has grown from $19 billion I think in 2001 to $50 billion--over 
$50 billion in 2011. And it is going to continue over the next 
few years to grow.
    So we have got to have a balance in terms of providing this 
high-quality care and somehow containing the costs, and the 
costs continue to grow. And as you indicated very clearly, the 
requirements for our families have grown substantially over the 
many years. That said, I don't think there is any more 
important focus in our future than to make sure we get it right 
not just for our people, but also our families.
    And we still have some significant challenges internal to 
the Department in providing care. The Secretary of Defense and 
I talk about this routinely. When we are on the road, we spend 
time with spouses, and particularly spouses in deployed units, 
that medical care continues to be at the top of their list to 
get it, as good as it is.
    In recent years, we have unsuccessfully recommended that 
the copay rates, which have not increased since 1995, be looked 
at to increase. I don't see how at $19 billion in 2001, $50 
billion in 2011, $64 billion, I think the number is, in 2015, 
it is just simply not sustainable.
    So my emphasis these days, and I know the Secretary's as 
well, is how do we contain the costs?
    Senator Cochran [presiding]. Thank you very much, Admiral 
Mullen.
    Now I call on Senator Bond for any questions he has of the 
witnesses.
    Senator Bond. Thank you very much. I better turn this on. 
Thank you very much, Mr. Vice Chairman.

                            FORCE STRUCTURE

    Secretary Gates, Admiral Mullen, we appreciate your 
service. I thank you for, first of all, when you say you are 
looking for savings of $100 billion in 5 years, we would humbly 
suggest that you put more, not less, in the force structure for 
the Guard, which is a bargain for our military defense. But I 
thank you for your recent decision to move forward with the F/
A-18 multiyear. This pragmatic decision will help address 
larger fighter shortfalls in the Navy, save the taxpayer over 
$500 million.
    I believe strongly we take for granted our defense base 
will always be there, maintaining capacity and innovation to 
keep the United States and our warfighters second to none. I 
agree with the chairman that our ability to respond to current 
and emerging threats is dependent on preserving the ability to 
engineer, design, and procure both counterinsurgency 
technologies that we are employing today and technology to 
maintain our conventional military edge.
    In less than a decade, more than 50 major defense companies 
have been consolidated into only 6, and six aircraft primes 
have been narrowed to only two. After 2013, we will be down to 
one. The latest QDR has recognized and said how important and 
complex the industrial base is, but I would like to know what 
the Department of Defense and the administration are doing to 
ensure that we have the skilled workers, engineers, and 
companies both to address the threats to our Nation now and in 
the future.
    And one of the challenges of sustaining the defense base 
comes from a reduction in the overall number of programs. There 
are fewer new start programs, less investment in research and 
development, longer lifecycles, and increased cost for 
programs, especially like the JSF, that result in fewer efforts 
being underway.
    And I think a telling example is saying we shouldn't 
purchase any more C-17s. The mobility capability study will not 
address the possibility that the Nation may need to surge its 
production of airlifters in response to a national emergency or 
a humanitarian crisis like Haiti. And I question the validity 
of a single study which doesn't take into consideration the 
need of an industrial base.

                                 C-17S

    The decision on the C-17 is particularly troubling because 
there will not be a single facility in North America anywhere 
assembling large aircraft designed to military specifications, 
and many of the old C-5As are reaching the end of their service 
life. I question why it is in our Nation's interest to close 
the only active production line for long-range airlifters when 
there is no replacement that is being developed.
    And my question is what steps are being taken to protect 
the industrial base in heavy airlift, strategic airlift?
    Secretary Gates. Well, first of all, Senator, there have 
been three mobility studies done on the size of our strategic 
lift capability--one in 2005; one in 2008, sponsored and 
mandated by the Congress; and one in 2009. And those studies 
have taken into account a stressed strategic environment, as 
well as increased end strength in the military, the ability to 
carry large-scale, larger equipment such as mine resistant 
ambush protected (MRAP), and so on.
    There is the capability in the United States for wide-body 
aircraft. U.S. manufacturers make them all the time. The C-17 
will have a very long lifespan. Those that are being built now 
will probably be flying in 35 to 40 years. So we have a 
substantial capability that takes into account really all of 
the stressed environments, and I think that we do have in the 
United States a capability--an industrial base that is capable 
of building wide-body aircraft and, over the period of time 
that we are looking at, the ability to adapt whatever is needed 
to meet military specifications. But the C-17 is going to be 
with us for decades.
    Senator Bond. But the C-5A is reaching its service life, 
and we are going to need replacements, aren't we?
    Excuse me, Admiral Mullen. I didn't see you were wanting to 
speak.
    Admiral Mullen. As far as that is concerned, the studies, 
which have been extensive, look at both the C-5s and the C-17s. 
And the requirement, I cannot find a requirement for additional 
C-17s. As hard as we have looked, and quite frankly, because 
this is visited--been visited so many times, we have looked at 
it time and time again. We just don't have a requirement beyond 
the 223 C-17s, and there are some that would argue that that is 
actually too many.
    I certainly share your concern with respect to the 
industrial base, and there is no easy answer there across a 
broad set of capabilities for our country. And the only way 
that I have seen that successfully addressed in the past is a 
strategic relationship--which includes obviously the 
partnership, if you will, between the Hill, between the 
Department of Defense, and those who build it--to make sure 
that we look at meeting our requirements and our ability to 
sustain a very important industrial base at an affordable cost. 
And that then gets into acquisition and how we do things.
    So I certainly take your point, Senator, about the 
industrial base. It is critical. But I don't think from the 
standpoint of retaining it or sustaining it, one, against a 
requirement that doesn't exist anymore, and second--and doesn't 
look like it will exist for an extended period of time, and 
second, at an affordability level that we just have not seen. 
That is the concern. I just think we have to address this 
strategically in ways we haven't in the past.
    Senator Bond. Thank you very much, gentlemen. I will have 
questions I will submit to you in writing, if you don't mind.
    Thank you.
    Senator Cochran. Senator Hutchison, I think you are next, 
and then Senator Specter.
    We are going to try to recognize folks in the order in 
which they came in.
    Senator Hutchison, you may proceed.
    Senator Hutchison. Thank you.
    Senator Cochran. Then I will call on Senator Hutchison--
Senator Murray, sorry.
    Senator Hutchison. Mr. Chairman, thank you. And I want to 
thank all of you for being here.
    Mr. Secretary, we have talked about your mission to try to 
lower the defense budget and you are looking for places to cut, 
and I am hoping that I can expand on this in the near future 
with you. But here are some of the concerns that I have seen as 
the ranking member and former chairman of the Military 
Construction Subcommittee.
    We have had a strategy of after we saw the deployment 
problems that we had when we were going into Iraq out of 
Germany, and also as we were looking at the training 
constraints in Germany and other parts of the world where we 
are. So we have had a strategy, and this just gives you an idea 
of the chart on Milcon buildup in the United States, starting 
in fiscal year 2006. We built up heavily in 2009 and 2010 to 
try to bring our troops home from Germany, some from Korea, to 
be able to train and deploy where we had complete control.
    But now I am looking at the 2011 budget request for 
Germany, and it is $500 million. And of greater concern is--
this is the Milcon in Germany for the next 5 years, and we are 
looking at $3.5 billion in the next 5 years in Germany. Now I 
am concerned that we are duplicating efforts, and let me just 
give you an example in Germany.
    The European Command and the African Command are 
headquartered in Stuttgart. And yet the Army is now coming in 
to request $91 million for a SCIF facility in Wiesbaden, plus a 
new battle command center for $120 million in Wiesbaden. So the 
Army is going to a separate location, when we already seem to 
have our resources consolidated in Stuttgart.
    The German building requirements are higher, and yet 
Germany has only over the past 13 years contributed 
approximately 7 percent of the building requirements in 
Germany. And then you look at the effort that is being made by 
Germany in Afghanistan right now, approximately 4,000 troops 
out of approximately 100,000 in Afghanistan.
    And I guess I am just looking at the potential for savings 
and consolidation and efficiencies in military construction, 
and I am asking you if that has been a factor in your 
decisions, if you have looked at this plan for $3.5 billion in 
Germany, and what is the thinking behind that? And is it 
necessary to do that much when we have had the strategy of 
building up in America and deploying where we wouldn't have 
deployment problems as we saw going into Iraq?
    Secretary Gates. I will have to ask the Army to come up and 
brief you on the details and the justification of their 
specific programs. I would say more broadly that the path that 
we have been on was a path on global posture review that was 
established by the Bush administration.
    One of the outgrowths of the Quadrennial Defense Review was 
a request to revisit that issue by the Obama administration, 
and we are in the process of doing that this year in terms of 
our presence not just in Germany, but elsewhere around the 
world. And so, the conclusions of that study and whatever 
decisions the President makes on that will obviously 
significantly impact the kind of programs that you are 
describing.
    Senator Hutchison. When you are looking at budgetary 
matters and when the commanders in the field are making these 
requests, do you look at the effort made by the host country?
    I look, for instance, as a comparison to what Germany has 
done, to Japan, which has been above 90 percent in effort to 
help offset our costs. And Germany has asked us to stay, in 
many places. So is that a focus that the Department makes in 
general?
    Secretary Gates. It certainly is a consideration.
    Senator Hutchison. Well, there are also concerns that I 
have with Korea----
    Senator Cochran. Senator, your time is expired.
    Senator Hutchison. I hope to be able to give you some 
thoughts that I have and perhaps work with you to see if we can 
be more efficient with the military construction side in the 
future.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    We established, under Senator Inouye's rule, that we would 
recognize Senators in the order in which they came into the 
hearing. And this is the list that we have had.
    Senator Leahy was here early and had to leave, but he is 
back now. Senator Murray is next, Senator Dorgan, Senator 
Feinstein, Senator Specter, Senator Bennett. That is the list 
in order of the chairman.
    Senator Murray. Mr. Chairman? Mr. Chairman, I just had a 
chat with Mr. Specter, who did have another engagement. I am 
happy to go after him on that list.
    Senator Cochran. I was going to recognize Senator Leahy. 
Senator Leahy.
    And here is the real chairman, so----
    Senator Leahy. Thank you. Did you ask questions? Okay.
    Secretary and Admiral Mullen, it is always good to see you. 
I appreciate the fact that both of you have always been 
available for questions from not only myself, but other members 
of the subcommittee.

                              AFGHANISTAN

    Let me ask you a little bit about Afghanistan. We all want 
to see al-Qaeda, Taliban, defeated, but I worry about our 
clear, achievable goals there. I supported--9, 10 years ago 
now--going into Afghanistan to get Osama bin Laden. I did not 
support going into Iraq because I saw it as no threat to the 
United States.
    Secretary, you said last January we weren't trying to make 
Afghanistan a Central Asian Valhalla. But I am not sure what we 
are trying to make it. Right now, the top officials in Kabul do 
not have the confidence or respect of the Afghan people. They 
seem to be making common cause with a lot of people that we are 
fighting.
    We have committed so much, so much money here, and we have 
neglected so many things inside the borders of the United 
States. We see China and now others developing green 
technology, creating jobs, exporting it to elsewhere.
    We see a number of other things in other countries where 
they don't have the burdens of Afghanistan and Iraq. They are 
using the money to develop economic juggernauts, which could 
create huge problems for us in the future.
    We have 1,000 brave members of the Vermont National Guard 
there. And I want to thank you publicly, Admiral Mullen, for 
coming up and speaking to them. It was a highlight for them, 
the fact that you did.
    So, I mean, how do you see it? What is our end game?
    Secretary Gates. Well, first of all, I think one of the 
results of the very detailed analytical effort and policy 
consideration effort of the administration last fall was, in 
fact, to clarify our goals. And our goal is to ensure that 
Afghanistan is not a place from which attacks can be launched 
on the United States again.
    And in a nutshell, the strategy is to reverse the momentum 
of the Taliban, to deny them control of populated areas, to 
degrade their capabilities to the point where the Afghan 
security forces can take care of them.
    And the Afghans are ahead of pace, in terms of building 
both the police and the army. We still are dealing with quality 
issues, but we are making headway. We are making progress on 
trainers. The percentage of trainers to trainees has gone from 
about 1 to 80 to about 1 to 30.
    I read a lot in the press about corruption and so on and so 
forth, but the reality is there are ministers in Kabul doing 
their jobs, and there are Afghan soldiers and police out there 
who are dying in even greater numbers than we are, fighting for 
their country.
    Senator Leahy. I met a number of those ministers, and I 
have a great deal of confidence in them. But do you have 
confidence in the top leadership of the country?
    Secretary Gates. Yes, I do. First of all, from my own 
conversations with President Karzai, I think that he is 
embracing his responsibility for this conflict in his country. 
His visit to Kandahar just a few days ago that the Admiral 
referred to was very important, in terms of helping set the 
stage for the continuation of the campaign there.
    So I think that we have some clear goals. I think, frankly, 
that the narrative over the last week or so, possibly because 
of the higher casualties and other factors, has been too 
negative. I think that we are regaining the initiative. I think 
that we are making headway.
    But the thing that I would say--two other points I would 
make, Senator is, people need to remember we have only been at 
this new strategy for about 4\1/2\ months. We don't even have 
all the surge troops in Afghanistan.
    Senator Leahy. Could I ask you on this, before my time runs 
out, is the Leahy law being implemented in both Afghanistan and 
Pakistan?
    Secretary Gates. We are working to ensure that the Leahy 
law is being implemented in both places. And we could discuss 
it further with you in a closed setting.
    Senator Leahy. I suspect it will require a closed session. 
But I just mentioned that because I have discussed it with you 
privately, as with the Admiral, and it is more than just a 
talking point with me.
    Secretary Gates. Well, we understand that fully, Senator, 
and it is with us as well.
    Senator Leahy. Thank you.
    Secretary Gates. And I would just add one more point to the 
earlier point you made. There is no doubt that these wars have 
cost the United States, the American taxpayers a lot of money--
as the chairman said at the outset, close to $1 trillion.
    That said, in terms of our international competitiveness, 
in terms of our overall economy, it is worth keeping the 
perspective that, at about 4 percent to 4.5 percent of gross 
domestic product (GDP), we are spending less on defense than 
during any other war time in our history. And it is a level 
that certainly is sustainable.
    Chairman Inouye [presiding]. Thank you very much, Mr. 
Secretary.
    Senator Murray.
    Senator Murray. Mr. Chairman, Senator Specter came in while 
I was voting and does have a previous commitment, and I agreed 
that he could go ahead of me, if that is all right with you.
    Chairman Inouye. Fine. Oh, Senator Specter, yes?
    Senator Specter. Thank you, Mr. Chairman.

                     IRAN TO DEVELOP NUCLEAR WEAPON

    Secretary Gates, an article in the New York Times on April 
17 of this year quotes sources on a confidential memorandum 
written by you, according to the Times article, which broadened 
considerations on dealing with Iran's efforts to develop a 
nuclear weapon, to contain that effort.
    General John Abizaid had, some time before, talked about 
containment as an option. And I think we would all vastly 
prefer not to see Iran develop a nuclear weapon--unacceptable 
to have that country have such a weapon. But there has been 
talk about alternative courses if those efforts are not 
successful. What would the broad parameters be should the 
option be considered for a containment policy?
    Secretary Gates. First of all, Senator Specter, I would 
tell you that, contrary to the news account, the memorandum 
that I did earlier this year did not discuss, either by name or 
in concept, anything about containment. And my answer to your 
question would be is that I think we have a strategy. Our view 
is that it is unacceptable for Iran to have nuclear weapons, 
and we are proceeding on that basis.
    Senator Specter. Mr. Secretary, when you testified back on 
March 21 of this year, I propounded a series of four questions 
and asked that they be responded to for the record. And as yet, 
I have not had a response.

                      ISRAELI-PALESTINIAN CONFLICT

    Let me ask you at this time, on one of the questions which 
I propounded, and that related to a statement by General 
Petraeus to the effect that the Israeli-Palestinian conflict 
foments anti-American sentiment, due to a perception of U.S. 
favoritism toward Israel. And his comment embraced the idea 
that a failure to resolve the conflict had begun to imperil 
American lives, which is obviously a very serious consequence.
    What basis, if you know, did General Petraeus have for 
making that statement, or is there any indication that that 
statement is factually correct?
    Secretary Gates. First of all, if you haven't received the 
answers to your questions from March, I apologize for that, and 
we will find out why.
    My recollection--and I would defer to the chairman because 
he may remember better than I do--I do not think that that is, 
in fact, what General Petraeus said. I think that our view is 
it is clear that a Middle East peace settlement between Israel 
and the Palestinians would enhance our diplomatic and other 
efforts in the region and would enhance our own security 
because that dispute is used by our adversaries against us. But 
I don't know of any evidence that the failure to arrive at a 
Middle East peace solution has, in fact, put American military 
lives at risk.
    Admiral Mullen. Nor do I, Senator. I think the Secretary 
has it exactly right.
    Senator Specter. Secretary Gates, in an interview with CNN 
back on April 29, 2009, you had commented that you thought our 
policy was sometimes too arrogant. And one of the concerns that 
I have had has been in dealing with Iran, we have never been 
able to establish really a dialogue.
    For some time, a number of Senators were trying to have 
some interparliamentary exchanges. In 2007, Senators Biden, 
Hagel, Dodd, and I wrote a letter to the parliamentarians in 
Iran and got back a response--that had been discussed with 
President Bush at that time, who had no objection--got back a 
response from the Iranians that they liked the tone of our 
letter but were not yet ready to talk.
    And the question I have, in line with your comment about 
U.S. arrogance, would be is there any way we might use what 
President Bush had talked about starting his administration, a 
little more humility? And I think President Obama has certainly 
withdrawn any effort to have preconditions, like stopping the 
enrichment of uranium before you talk about the subject. Any 
way to modify our attitude in our dealings with Iran, which 
might produce some better results?
    Secretary Gates. Senator, every United States President 
since the Iranian revolution has reached out to the Iranians. I 
was present at the first outreach in--at the end of October 
1979 when Dr. Brzezinski met with the leadership of the Iranian 
Government--the prime minister, defense minister, foreign 
minister. We basically said, ``We accept your revolution. We 
are willing to work with you. We have a common foe to your 
north. We will sell you all the weapons that we had contracted 
to sell the shah.''
    And they said, ``Give us the shah.''
    Three days later after that meeting, our Embassy was 
seized. And 2 weeks later, all three of those people were out 
of power. Every subsequent President has reached out to the 
Iranians, no President more sincerely and with greater effort 
than President Obama. This is one case where I don't think--
where I think that the arrogance, frankly, has been on the 
other side of the table, not on the American side of the table.
    Senator Specter. Senator Murray, thank you for yielding.
    Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thanks to all of you testifying before the subcommittee 
today.
    Secretary Gates, I wanted to start with you because, as you 
well know, among many of the troops who are serving us in 
Afghanistan today, many are deployed from Fort Lewis in my home 
State. They are on the front lines with the 5/2 Stryker 
Brigade, for instance, and they have suffered tremendous losses 
this year. And with the increasing Taliban offensive operations 
every day, families across my State are picking up the paper 
almost every morning now and reading about more casualties.

                                 MARJAH

    I am committed to giving our servicemembers every resource 
they need to bring a quick and decisive end to the Taliban and 
the other insurgent forces. But I am very concerned about the 
increasing number of casualties, but also concerned about the 
reports that we haven't solidified our gains in Marjah and 
southern Afghanistan despite the tremendous sacrifice by our 
servicemembers and their families.
    And I wanted to ask you today what you can share with us to 
provide assurance that Marjah and our operations in southern 
Afghanistan are a success.
    Secretary Gates. Well, let me address it and then ask the 
chairman to do so as well. First of all, we made very clear at 
the very outset, many months ago, that this summer would see 
increased casualties.
    As our military and our coalition partners move into areas 
that have been controlled by the Taliban for the last 2 or 3 
years, it was inevitable that there would be increased 
casualties. Tragic, but inevitable. And we have warned about 
this from the very beginning.
    The reality is that the military operations in Marjah were 
successful, and a place that had been controlled by the Taliban 
for 2 years or more is no longer controlled by the Taliban. 
Getting the civilian coalition and Afghan forces in there, the 
civilian officials, building the development programs is moving 
forward, but it is moving slower than we originally 
anticipated.
    So I would say that, as I indicated earlier, I think that 
we are moving in the right direction. I just met with General 
McChrystal in Brussels last week. And I would tell you the 
general view of all of the alliance defense ministers was that 
we are moving in the right direction. We do now have all of the 
elements for success in place. This is going to be a long and a 
hard fight.
    And General McChrystal is convinced--confident--that he 
will be able to show that we got the right strategy and that we 
are making progress by the end of this year. But this is not 
something where week to week or month to month you can be able 
to say, ``We are moving the front forward.'' That is not the 
kind of fight this is.
    Admiral Mullen. Progress in Marjah, ma'am is slow and 
steady. And we see indicators all the time where bazaars are 
open where there were none before. And this, as the Secretary 
said, is a place that was run by the Taliban for the last 
several years.
    They are still there and intimidating, and they recognize 
that. Fundamentally, they have been displaced, but they 
certainly haven't been defeated in that particular area.
    We see an increase in the number of teachers who are there. 
There are some 80 plus teachers where a few months ago there 
were none. Schools are open where they weren't.
    And I don't want to paint a rosy picture here. It is a 
very, very tough fight. But we see steady progress, an increase 
in the number of local government of Afghanistan employees from 
in the 40s a few weeks ago to over 60 now.
    So we recognize the significance of it. We recognize the 
challenge of it. And it is going to take some time. We see an 
expanded rule of law taking place there. It is very gradual. 
This is a very, very tough undertaking, and it is going to take 
some time.
    And I would not----
    Senator Murray. Okay.
    Admiral Mullen [continuing]. Though, ask routinely when 
will we be successful in Marjah specifically? And it is hard to 
say that, but all the indicators are moving in the right 
direction, as tough as it is.
    Senator Murray. I have another question for Secretary 
Gates, but I think all of us are watching this very closely, 
and especially those of us who are seeing this affecting our 
home States and the servicemembers that we represent. So we 
will stay in touch with you on that as well.
    I did want to ask you, Secretary Gates, about a topic you 
and I have discussed many times, and that is the tanker 
competition. You know my concern about the fact that the World 
Trade Organization (WTO) has said that there were illegal trade 
distorting subsidies for the A330 Airbus frame. And I know we 
have had an exchange on this issue.
    But I just heard you say in your opening remarks that the 
President would veto any appropriations with the C-17 funding. 
And I am very concerned, if this is awarded to Airbus, the KC-
X, that we would have absolutely no wide-body military aircraft 
production left in our country, leaving us very vulnerable in 
the future. Does the DOD have any plans to address the 
potential loss of U.S. capability?
    Secretary Gates. First of all, as I indicated in response 
to Senator Bond earlier, we expect to have the C-17 with us for 
decades, probably 40 years or more.
    Senator Murray. In production?
    Secretary Gates. There is significant wide-body aircraft 
production capability in the United States, and we have more 
than enough time to adjust it to a military production line if 
we need to.
    Senator Murray. And the production capability and ongoing 
engineering design and manufacturing?
    Secretary Gates. Sure. I mean, if you have wide-body 
engineering and capability for civilian and commercial 
purposes, it can be adapted for military purposes.
    Senator Murray. My time is up, Mr. Chairman. Thank you.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. Admiral Mullen, the Defense Department, I 
understand, has suggested that continuing the DDG 1000 
destroyer program is essential to our national security 
interests. One of the reasons I understand for this is the 
determination that there is an important need in maintaining a 
national ship building capability.
    What suggestions do you have or strategies do you have that 
will address concerns about our ability to meet our current and 
a future national security needs in the area of ship building?

                             SHIPS FOR NAVY

    Admiral Mullen. Well, as I indicated in my opening 
statement, Senator Cochran, I think that being able to produce 
the number of ships that we need for our Navy is a critical 
imperative for our future security and that we have an 
industrial base that obviously supports that.
    And the only way in the many years that I have been 
involved in ship building in particular, the only way I have 
ever seen it come close to success is to reach that sort of 
strategic partnership that I indicated before between the 
industry, obviously you on the Hill, and the administration.
    And it has got to be affordable. I mean, one of the 
challenges that we had with the DDG 1000 program, like too 
many, is we started and the costs just absolutely skyrocketed, 
and it essentially does itself in. And I don't know any other 
way to get at that except that kind of strategic partnership, 
which then together addresses the major challenges, both in 
acquisition, in transition from one ship class to another, the 
challenges that obviously exist in shipyards in your home 
State, as well as where we have additional shipyards.
    How do we inject the technology over time? How do we 
sustain that capability over time in what takes a long time to 
build as well as expected to be around for 30 to 40 years, 
depending on the ship that you are talking about? I think it is 
absolutely vital that we have that base. But it has got to be 
at an affordable level.

                         NEW GOVERNMENT IN IRAQ

    Senator Cochran. Mr. Secretary, there are some political 
uncertainties surrounding the new government in Iraq. And we 
know that there has been violence, and there probably will be 
more violence.
    My question is will the delays that are being observed in 
establishing a new government affect the drawdown of U.S. 
forces? Are we going to be forced by danger signs of 
instability to change our plans and strategy of how to deal 
with the situation there?
    Secretary Gates. The short answer, Senator Cochran, is no. 
The truth of the matter is the election trajectory in Iraq is 
basically going pretty much as had been predicted. We figured 
it would take several months for them to form a government 
after the election.
    An important hurdle in terms of General Odierno's 
confidence was the certification of the election last week. The 
Council of Representatives convened this last Monday, and that 
begins the process of formation of the government.
    So the violence that we have seen has really been al-Qaeda 
in Iraq violence aimed at promoting or provoking sectarian 
conflict and sectarian violence. And one of the good news 
stories out of Iraq is that that effort on their part has 
completely failed. These guys are doing politics.
    And I would just say, coming out of the NATO summit--and I 
probably shouldn't say this--but I was intrigued with the fact 
that we have a new Dutch Government in formation, and they 
anticipate that it is going to take about 4 months to put the 
Dutch Government together. So, you know, these coalition 
governments aren't too easy even in established countries.
    Senator Cochran. Admiral Mullen, what is your assessment of 
the Iraq security forces and their capability of effectively 
managing the security challenges?
    Admiral Mullen. Maybe I could use just a vignette to speak 
to that, that recently when two of the top al-Qaeda leaders, 
al-Qaeda in Iraq leaders were killed, that is Iraqi security 
forces were very much involved in that. And every time I both 
either see or ask about this issue, they are in the lead.
    And there is a great confidence in particularly their 
ground forces. We are working to evolve their naval capability. 
We are working to evolve their aviation capability. But they 
have been particularly strong.
    What General Odierno will also speak to is he was taken 
back a little bit by the way they seized this requirement when 
we came out of the cities 1 year ago last June. Their country, 
a lot of pride in what they do, and they really have stepped up 
to it and made a difference.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Welcome.

                              SUPPLEMENTAL

    Mr. Secretary, Senator Cochran, I think, asked in his--
rhetorically in his opening statement about the supplemental. I 
think we were told earlier that the supplemental had to be 
completed by Memorial Day. It was, of course, not. I mean, the 
Senate has completed it.
    But what is the date by which you are not able to make the 
payments you need to make in terms of getting the supplemental 
done?
    Secretary Gates. I had hoped that it would be done by 
Memorial Day. We begin to have to do stupid things if the 
supplemental isn't passed by the Fourth of July recess. We will 
have to begin planning our--the money that we have in the 
overseas contingency fund for the Navy and the Marine Corps 
will begin to run out in July. We will then turn to O&M money 
in the base budget for them, causing us to disrupt other 
programs. The Army comes along a little behind that.
    And we reach a point--and so, we begin to have to do 
disruptive planning and disruptive actions beginning in July. 
We could reach a point in August, in early to mid August, where 
we actually could be in a position where the money that we have 
available to us in the base budget runs out, and we could have 
a situation where we are furloughing civilians and where we 
have active duty military we cannot pay.
    Senator Dorgan. Mr. Secretary, you mentioned a startling 
statistic. You talked about, I think, the Joint Strike Fighter 
in a plant where it was taking 7 percent of the space in the 
plant, and the Government was being charged 80 percent of the 
overhead.
    Secretary Gates. Six percent of the floor space, 70 percent 
of the overhead.
    Senator Dorgan. I am sorry, 6 percent of the floor space, 
and yet you were being charged 70 percent of the overhead. How 
does that happen?
    I mean--and by the way, I appreciate and I think all 
Members of the Senate appreciate your deciding we are going to 
make people accountable for bad management practices, and we 
are going to incentivize and laud good management. But how did 
you find that out and then check it back and find out who on 
Earth made that decision?
    Secretary Gates. Unfortunately, Senator, I think there have 
been a lot of bad decisions along these lines in terms of 
contracting and in terms of our acquisition process. And so, 
the acquisition reform bill that was passed here and that the 
President signed into law is an important asset.
    But at the end of the day, what is really required is 
people who can execute a program efficiently and with a very 
sharp pencil for the taxpayer. I don't think we have had a 
sharp enough pencil, and in some cases, I don't think we have 
had sharp enough managers.
    I think we are trying to more professionalize our 
acquisition workforce now. We are substituting career civil 
servants who have these skills for contractors who, in many 
cases, have been doing it. But we just have to be a lot smarter 
and a lot tougher and a lot more effective in our execution of 
the programs, and as you suggested, and as I believe, and hold 
people accountable.
    Senator Dorgan. The work you are doing on contracting is so 
important. I mean, it is an inelegant term, but it is just, to 
use the term ``dumb'' for anyone who would say, ``Yes, our 
program has 7 percent or 6 percent of the floor space, we are 
willing to ante up 80 percent or 70 percent of the--of the 
overhead.'' I mean, that is just dumb for somebody to do that. 
And I applaud what you are trying to do to establish 
accountability.
    I want to ask about Afghanistan because I am nervous and 
worried about that which has been written recently and I think 
also acknowledged by some--the persistent violence around 
Marjah, the issue of the Taliban in Kandahar, and General 
McChrystal saying that this is going to happen more slowly than 
we originally anticipated.
    And as I look at that, and I wonder, you know, what are the 
costs of that in terms of soldiers' lives and money and so on, 
and then I also wonder, aside from Marjah and Kandahar, do we 
ever expect to control the tribal regions of Afghanistan? I 
mean, so as I look at that, I am becoming more and more nervous 
about the July 2011 date by which the President talked about 
bringing troops out.
    So give me your assessment. We are reading these things 
that seem less optimistic and seem to suggest things aren't 
going as they expected.
    Secretary Gates. Let us both take a crack at it briefly.
    First of all, I think that we have--I think General 
McChrystal has finally put in place a strategy that can be 
successful in Afghanistan. We have the assets arriving on the 
ground that will allow us to be successful. We still have a 
third of the troops yet to arrive that are part of the surge.
    So we are only a few months into the execution of the 
President's new policy, and I must tell you, I have a certain 
sense of deja vu because I was sitting here getting the same 
kind of questions about Iraq in June 2007, when we had just 
barely gotten the surge forces into Iraq at that point. This is 
not--this is not some kind of production program or something 
where you have--you know, you are going to meet these 
particular objectives this week and next week.
    This is--as the chairman was saying, this is a process. We 
think we have the right assets, we have the right strategy, we 
have the right leadership. And most of our allies and partners 
share our view that things are heading in the right direction 
and that we will be able to show clear progress and that we are 
on the right track by the end of this year.
    But this is not something where we do ourselves any favors 
by tearing ourselves up by the roots every week to see if we 
are growing. This is a process, and it is going to be long and 
hard, but we are headed in the right direction.

                     MILITARY CAMPAIGN IN KANDAHAR

    Senator Dorgan. But, Mr. Secretary, I just wondered, I was 
actually quoting General McChrystal when he said this will 
``happen more slowly than we originally anticipated.'' So----
    Secretary Gates. Yes. And what he is talking about is the 
time, as we shape--what General McChrystal has also tried to 
make clear is this is not going to be a traditional military 
campaign in Kandahar. There is a huge political and economic 
component to this. And the shaping of the political 
environment, as they--as they had real success in doing before 
Marjah, is very important in Kandahar. And that is what he is 
talking about is going to take a little more time than he 
anticipated.
    Admiral Mullen. I would echo what the Secretary said, from 
what I have seen and certainly my interaction with General 
Petraeus and General McChrystal, Senator. And I mean, we all 
have angst about this, but we have got a tremendous leadership 
team. We have put the resources in, and it is a very, very 
difficult counterinsurgency.
    And as I said in my opening statement and I have said 
before, I think Kandahar is the center of gravity for this. I 
think we will know by the end of the year obviously where we 
are with respect to reversing the momentum, and that is one of 
the key objectives here.
    What I am concerned about, and I know people are focused on 
July 2011, we all are in a way, but we are not just not going 
to know until we get much closer to July 2011 how many troops 
and where they will come from, the pace and the place. And all 
of that is conditions based, and I think we have to remember 
that.
    Clearly, I think we will start thinning our lines, if you 
will, and moving our troops out, but we are just not going to 
know. And we haven't gotten to July 2010 yet.
    So I share the angst. There is an awful lot of people 
focused on it. And we want to be as--and nobody more so than 
General McChrystal--as transparent with what is going on as 
possible.
    But it is not just a military issue. It is the economic 
piece, the governance piece, all those things, all of which we 
are shaping right now, particularly in Kandahar.
    Senator Dorgan. I thank you very much.
    Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.

                                 CHINA

    Mr. Secretary, thank you again for your service. I think 
you have been terrific, and I know how hard it is. So thank you 
very much.
    The question--I wanted to ask two, one on Afghanistan and 
one on China. Let me take the China first.
    Things back here are Euro-centric. Out West, we look West. 
And for 30 years now, I have been going back and forth to China 
and trying to do what I can to build and improve a 
relationship. I just spent the last week there meeting with a 
lot of the leadership and came away with a very different view 
of what is happening, and I wanted to talk with you about it.
    I shared with them my dismay over your being turned down to 
meet with your counterpart. And what came back were arms sales 
to Taiwan. Now the impression I had from our Government before 
I went was, well, the Chinese expect this, and they are not 
going to be very upset. In fact, they were very upset. And a 
way they have in showing it is a refusal of military-to-
military contact, in my view, at a time when the Chinese 
military is expanding strategically in a very critical and 
concerning way.
    And I think that everything we do--we subscribe to the one 
China policy. Everything we do should be to minimize conflict 
in the straits. We met with President Ma Ying-jeou. He has had 
a very constructive relationship. He is about to sign an 
economic framework agreement with the mainland. And I think 
there is the opportunity to consider where we go if this 
across-the-strait situation is stable.
    So my question to you is this. What significant action 
could China take to ease its military posture in the strait in 
a manner that was substantive enough for you to consider or 
reconsider the future arms sales to Taiwan, which are a 
substantial irritant and will continue to be a substantial 
irritant, in my view?
    Secretary Gates. First of all, Senator, one of the points 
that I made in Singapore with Chinese military leaders in the 
audience was that our arms sales to Taiwan are on the basis of 
the Taiwan Relations Act that was passed at the time of 
normalization in the late 1970s. I think that--and they have 
known that all along.
    And I was struck by an article in the local press in 
Singapore following that session. Somebody asked one of these 
Chinese generals or some Chinese general--may not have been one 
present--``You guys have known about these sales for decades. 
Why all of a sudden are you raising such a stink about them?'' 
And this general's response was, ``We had to accept it when we 
were weak. We are no longer weak.''
    And the bottom line is the decision on Taiwan arms sales is 
fundamentally a political decision. It is a decision mandated 
by the Taiwan Relations Act, and it is a presidential decision. 
So this is not a decision that is up to the Department of 
Defense. It is a decision that is up to the political 
leadership of the United States in terms of what would be 
required in order to change our approach with respect to the 
execution of that law or change that law, if it is necessary. I 
don't know whether that is required. But that is essentially a 
political decision, not one that we in DOD would take.
    But I would tell you the Chinese, even though the president 
of Taiwan has reached out and that relationship looks pretty 
stable--and we certainly applaud the growing links between 
Taiwan and the People's Republic--another piece of that is the 
extraordinary Chinese deployment of all manner of cruise and 
ballistic missiles opposite Taiwan on the Chinese side of the 
strait. So that is a reality that goes along with the growing 
other links between the two.
    But as you say, our position, and I repeated it in 
Singapore, was we are opposed to the independence of Taiwan. We 
stick with the three communiques that have guided United 
States-Chinese relationships for the last 30 plus years, and we 
need to go forward.
    Senator Feinstein. Perhaps some of this I should discuss 
with you privately, but in my meeting with some of the 
leadership, it was mentioned that China had offered to redeploy 
back. Now I understand the word ``redeploy'' isn't ``remove.'' 
And I understand the nature of what is there and the number of 
troops.
    However, I think that the most important thing we can do 
right now is establish some military-to-military contact. And I 
discussed this with Admiral Willard, as a matter of fact as 
late as yesterday, and I think he thinks this way as well.
    So I would just leave that with you. I think it is 
extraordinarily important that we find a way that our top flag 
officers can communicate with their counterparts.
    Secretary Gates. Well, I would just say, Senator, that I 
also believe those contacts are necessary, and not just sort of 
ship visits and the uniformed officers talking with one 
another, but from a policy standpoint and from a strategy 
standpoint. The point I have made, and my whole speech in 
Singapore, a good part of it, was about the importance of 
military-to-military relationships between our two countries.
    Because in my experience with the Soviet Union, I don't 
know if the strategic arms talks ever really achieved much arms 
control. But the one thing I do know is that over a 25-year 
period, we gained a very good understanding of each other's 
approach and strategy when it came to nuclear weapons, nuclear 
strategy, and so on. And I believe deeply that it helped avoid 
miscalculations and misunderstandings. I have no interest in a 
military-to-military relationship where we basically get 
together and sing ``Kumbayah.''
    Senator Feinstein. That is right.
    Secretary Gates. But I think that having a relationship 
where we can talk about things that are really potentially 
dangerous in our relationship has all kinds of merit, and I am 
a strong proponent of contacts with the Chinese military for 
that kind of a dialogue.
    Senator Feinstein. Thank you. I am pleased to hear that.
    I think my time is up. Thank you.
    Chairman Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Secretary and Mr. Chairman, Admiral, thank you for all 
of your service and all of the good work you do and all of the 
hard work you do.

                          SOLID ROCKET MOTORS

    I have listened with great interest to the questions of my 
colleagues, and they have addressed all of the major issues. 
And so, I am going to be a little bit parochial. Senator Murray 
talked about tankers, and Senator Cochran talked about ships. 
It will come as no surprise that I am going to talk to you 
about solid rocket motors.
    And you are well aware that many of us are concerned with 
the solid rocket motor industrial base and the importance of 
sustaining that. And in the Nuclear Posture Review (NPR), I 
understand the Quadrennial Defense Review, recently published 
national security strategy, testimonies, and so on, you all 
underscored the need for the capabilities and the stability of 
systems that rely on solid rocket motors and a robust 
production industry.
    Unfortunately, the administration's budget seems determined 
to go in the other way, the other direction, and we will not 
only lose the industry, we will lose the skills that go with 
it. The industrial base is one thing, but when you really are 
talking about rocket scientists, you lose them, and they go 
elsewhere. And it would be impossible to reconstruct that.
    So, last year, the Congress directed the Department to 
review and establish a plan to sustain the solid rocket 
industrial base, and the plan was to be due June 1. June 1 has 
come and gone. I understand an interim report is still in the 
development and that the Department is working toward delivery 
of a final plan ``no earlier than the end of this fiscal 
year.''
    If I can take you to today's newspapers, they are talking 
about a continuing resolution at the end of this year, to be 
followed at some undetermined moment an omnibus bill, and this 
creates great uncertainty with respect to the solid rocket 
folks.
    So, in the absence of an official recommendation regarding 
the delivery of a solid rocket motor industrial base 
sustainment plan, do you have any recommendations that you 
could offer now or anything you could share with us as to the 
thoughts the Department may have in this area?
    Secretary Gates. Let me ask the Admiral if he has any--
anything on this. I would tell you that I am not aware of the 
status of this report and not in a position to provide any 
recommendations, frankly, because I just don't know. But I am 
happy to go find out why this report is overdue and see if we 
can't bring it to conclusion.
    Senator Bennett. I am less concerned with the June 1 date 
than I am with the idea that all we will have is an interim 
report by the end of the fiscal year. And this subcommittee is 
going to have to take action before the end of the fiscal year 
because it may very well be that the Defense appropriations 
bill becomes the only one that escapes the omnibus and passes 
on its own.
    Secretary Gates. No, I will commit to you that we will----
    Senator Bennett. I know the chairman hopes that is not the 
case and I hope it is not the case with him, but there is 
always that possibility.
    Secretary Gates. What I can commit to you is to try and get 
this report and its recommendations to you so you can make some 
timely decisions.
    Senator Bennett. Okay. Well----
    Admiral Mullen. Senator, actually, I don't--I don't have 
any more background at this point than the Secretary. I would 
have to go do some homework.
    Senator Bennett. All right. That is fine. Most disturbing 
to me and others who share my concern about this--this is not 
strictly a Utah parochial issue--is the lack of evidence--it is 
a complete lack of evidence--of any coordination between the 
National Aeronautics and Space Administration (NASA) and the 
Pentagon before undertaking the actions to basically kill this 
industry. And do you have any reaction to that statement?
    We have discussed this in hearings before, but are you 
aware of anything that has been raised with the Department of 
Defense on the part of NASA, as they have decided unilaterally 
to shut down the creation of solid rocket motors?
    Secretary Gates. I am just not aware of whether or how much 
coordination there was with us, Senator, but I can certainly 
get an answer for you.
    [The information follows:]

    In response to the Congressional direction in section 1078 
of the National Defense Authorization Act for Fiscal Year 2010, 
Public Law 111-84, the Department has reached across all SRM 
stakeholders--including NASA--to ensure all potential 
industrial base issues regarding SRMs are identified and plans 
are put in place for their resolution. To this end, the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(AT&L) established a three-tiered InterAgency Task Force 
(IATF). The IATF is co-chaired by the Department and NASA and 
has members from the Office of the Secretary of Defense (OSD), 
NASA, Missile Defense Agency, Air Force, Navy, and Army. The 
IATF has met 12 times since the first meeting on November 6, 
2009. The next meeting is scheduled for August 9, 2010. As part 
of a government-wide effort, the IATF discussed various human 
flight options NASA was considering. Representatives from NASA 
have actively participated in the IATF; attending meetings and 
contractor site visits, providing SRM presentations to team 
members, and developing a range of options for the Department 
to consider as it works to sustain the SRM industrial base.

    Senator Bennett. I think the implications for this are very 
serious. NASA, I think, is making a mistake. For NASA purposes, 
I think the absence of solid rocket motors in NASA is going to 
raise NASA's costs, going to destroy the space program in a 
number of areas where I think it is important.
    But to go ahead on that decision without even talking to 
the Pentagon, in terms of the implications for Minuteman and 
other areas in the Defense Department where you are dependent 
on a solid rocket motor, borders on the irresponsible. So 
anything you could share with us I would very much appreciate.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.

                       NATIONAL INTERDICTION UNIT

    Senator Feinstein. Thank you very much, Mr. Chairman, for 
allowing me this extra question. I very much appreciate it.
    Secretary Gates, I am chairman of something called the 
Senate International Caucus--the Senate Caucus on International 
Drug Control. We call it the Drug Caucus. And we are about to 
put out a report on Afghanistan.
    I am very concerned that the Taliban is on its way to 
becoming a narco-cartel. And I won't go--I can make the 
argument here. I am not going to make it here. It will be in 
our report. But I want to ask you about one specific thing.
    There are specially vetted units supported by United States 
personnel that have proven to be very effective at conducting 
counternarcotics operations all around the world. At this time, 
there are only 288 members of the national interdiction unit of 
the Afghan counternarcotics police that have been vetted and 
work directly with United States personnel.
    Program managers have told the staff of our caucus that an 
additional 250 vetted officers are needed for the unit, based 
on the scope of the drug problem in Afghanistan. And this would 
maximize the ratio of United States men to Afghan officers at 
the current staffing levels.
    The contract for training the Afghan counternarcotics 
police is administered by the Department of Defense. My 
question to you is would you take a look at it and take a look 
at the possibility of adding 250 officers for this national 
interdiction unit?
    Secretary Gates. Sure, we will take a look at it.
    Senator Feinstein. I appreciate that. Thank you. That is my 
question.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    I have a question, Mr. Secretary, that has been festering 
in this body. Up until World War II, we had senior military 
officials with a full array of medals, with enemy generals and 
admirals in full array, signing documents to end a war. That is 
how we ended wars. Everything ceased. At what point could you 
say today the war is over, that we can leave?
    Secretary Gates. I think that the war in Afghanistan will 
end much as the war in Iraq has ended. And that is with a 
gradual transition from our being in the middle--our being in 
the military lead while the Iraqi security forces were growing, 
then partnering, then the Iraqis in the lead and our drawing 
back to tactical overwatch, and then strategic overwatch, and 
now an advisory and assist role, at the same time that the 
political system, starting fresh, was being created and 
maturing.

                       FOCUS ON YEMEN AND SOMALIA

    And I think what you will see is the same kind of a gradual 
transition to where the Afghans are in the lead in the security 
arena. That is what we are talking about when we talk about 
when we begin a process of transition to Afghan control in 
these provinces. We are already talking about which ones of 
those will happen, and can we do some of them beginning in--
toward the end of the year or early next year?
    So as we did it province by province in Iraq, I suspect 
that that is the way it will happen in Afghanistan as well. And 
I think however much people may debate how we got into Iraq, 
the outcome has ended up, at this point at least, being more 
positive than anybody could have dreamed 3 years ago.
    Chairman Inouye. I thank you very much.
    May I ask another question?
    Secretary Gates. I am cautioned to say the Iraq war is 
ending, not has ended.
    Chairman Inouye. I realize that no one can predict the 
signing of the document. But, Admiral Mullen, there is a place 
called Somalia that most Americans cannot point out on the map. 
However, press reports that it is becoming a safe haven for al-
Qaeda and other foreign fighters, training ground, et cetera. 
Are we going to get rid of them?
    Admiral Mullen. Chairman, for the last couple of years, I 
have talked about concerns with respect to growing safe havens 
and, in fact, an awful lot of focus on Yemen and Somalia 
specifically. And there is an al-Qaeda presence specifically in 
Yemen right now, which is very dangerous and growing and needs 
to continue to be addressed.
    There is certainly a terrorist safe haven in Somalia. And 
in terms of civility, it is a country that certainly if not a 
failed state, is borderline failed state. And in fact, there 
are camps where terrorists are trained in Somalia that we need 
to all be concerned about.
    So I am concerned about the fact that Somalia continues to 
fester, to use your word, in a very negative way, a government 
that is struggling to control it, under assault, quite frankly, 
from organizations that are terrorist based, and continue to be 
the home for the piracy network clearly, which is a challenge 
in that part of the world. So I am extremely concerned about 
that and its continued--ability to continue to grow in the 
future.
    The other place where there is longer-term potential is in 
northern Africa, in the Pan Sahel, where al-Qaeda has a very 
strong link as well. And so, while we focus on Afghanistan and 
Pakistan, which is where al-Qaeda leadership resides, it is 
really that network which is still extremely dangerous and 
intent on executing the kinds of potential attacks that we saw 
in Detroit at Christmas and recently in Times Square.
    Chairman Inouye. Senator Cochran, do you have any 
questions?
    Senator Cochran. I have no further questions.
    Chairman Inouye. Then, Mr. Secretary and Admiral Mullen, 
thank you for your testimony this morning and for your----
    Secretary Gates. Mr. Chairman?
    Chairman Inouye. Yes?
    Secretary Gates. At the risk of prolonging the hearing, 
could I take just a moment to address the two questions that 
you put to me in your opening statement very quickly?
    Chairman Inouye. Yes, sir.
    Secretary Gates. First of all, one of the frustrations that 
I have had ever since taking this job has been that the 
Department of Defense is organized and structured to plan for 
war, but not wage war. And the only way I have found that I 
have been able to get the kind of urgent action to create the 
MRAPs; to get the additional intelligence, surveillance, and 
reconnaissance work; to do the counter-improvised explosive 
device (IED) effort has been by pulling together these ad hoc 
groups, as you have described them, these task forces, where I 
chair them and essentially have all of the senior players, both 
uniformed and civilian, at the table, and to be able to force 
the kind of rapid action that has been necessary to support 
those in the field.
    In several of these areas, I think that the work has 
reached a point where I think I can begin to take actions to 
begin to return these efforts to where they would traditionally 
have a bureaucratic home. The MRAP Task Force, the ISR Task 
Force, the Counter-IED Task Force that is co-chaired by General 
Paxton and Under Secretary Carter never was intended to last 
more than another 2 or 3 months from now.
    So I think in at least three of these areas that we will be 
able to move back toward the traditional structures in the 
Department of Defense. But long term, it is a serious issue for 
the Department and, frankly, one that I have not yet found the 
answer to in terms of how to get urgent action in an area 
supporting men and women in combat today that ranges across the 
entirety of the Department, both uniformed and civilian, and 
all the different Defense agencies.
    With respect to the balance between future threats from 
near-peers and others, as opposed to our focus on irregular 
warfare, I would just remind the subcommittee that if you took 
a broad look at our budget, about 50 percent of our procurement 
budget is for what I would call long-term modernization 
programs to deal with near-peer countries, about 40 percent is 
dual purpose, like C-17s and other things we will use no matter 
what kind of conflict we are in, and about 10 percent has 
actually been for irregular or the kind of asymmetric warfare 
we have been talking about.
    So I think we have a very large number of programs in this 
budget that are aimed--and in fact, half of the procurement 
budget roughly that are aimed at the longer term, more 
sophisticated threats that this country will face in the 
future.
    Thanks for the extra couple of minutes.
    Chairman Inouye. If I may follow up Senator Feinstein? 
Press reports, as you have indicated, show that the Chinese 
have been advancing their cyber activities, their cruise 
missiles. Are we concerned?
    Secretary Gates. We are very concerned, Mr. Chairman. The 
growing capability of the Chinese with anti-ship cruise and 
ballistic missiles is a real concern for our Navy and for us. 
The cyber capability is very important. The anti-satellite 
capability and potential space-denial capabilities are of 
concern to us.
    So there are a number of areas of Chinese modernization 
that are of concern to us. And frankly, this is one of the 
reasons why I think having a strategic dialogue with them to 
try and gain some understanding and have some frank talks about 
these concerns has merit.
    Maybe the Admiral would like to add a word?
    Admiral Mullen. Well, sir, I am right there. I am 
increasingly concerned. It is increasingly opaque, and these 
dialogues are absolutely critical to try to understand each 
other. Each time--at least from my perspective, each time it 
gets turned off, it gets turned off by the Chinese, and then we 
will go through a period of time where we have no relationship.
    The Secretary talked earlier about Iran and his experience 
in 1979. And what that has led to is no relationship with a 
country for over 30 years, and look where we are. And so, if I 
use that as a model, that is certainly not one that we can 
afford as a country or as a military with China as China 
continues to grow.
    The peaceful rise of China, China as a global power, all 
those things make sense to me. What doesn't make sense to me is 
the fact that they won't engage, and specifically that their 
military won't engage.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. Well, once again, I thank you very much. 
And I thank you for your service to our Nation. And we look 
forward to working with you in the coming months as we continue 
our review of the budget.
    And as you conduct your internal analysis of military 
requirements, I would like to encourage you to share them with 
us so that we can be in step with you as we begin our work for 
the following fiscal year.
    As you know, we are having a few problems with the House on 
the supplemental, but I think we can resolve them. I hope so.
    [The following questions were not asked at the hearing, but 
were submitted to the Department of response subsequent to the 
hearing:]
                 Questions Submitted to Robert M. Gates
            Questions Submitted by Chairman Daniel K. Inouye
                                somalia
    Question. Secretary Gates, recent press reports have highlighted 
the growing presence and influence of foreign fighters and al-Qaeda in 
Somalia's Islamist al-Shabab group. How would you assess the threat 
posed by these groups to western interests in East Africa? Is Somalia 
becoming the ultimate safe haven for al-Qaeda and foreign fighters?
    Answer. Since mid-2008, several hundred of foreign fighters of 
various nationalities have entered Somalia to join al-Shabaab's ranks, 
although exact numbers and nationalities of foreign fighters in Somalia 
remain unclear. The recent June 2010 arrest of two U.S. citizens 
allegedly on their way to Somalia to join al-Shabaab, and the July 2010 
terrorist attack in Uganda for which al-Shabaab took credit further 
underscore the alarming nature of this trend. The influx of foreigners 
to Somalia could extend al-Shabaab's global reach, posing an increased 
transnational threat to U.S. and Western interests in the region. 
Moreover, cooperation between al-Shabaab and al-Qaida senior leadership 
could enhance the potential of a formal merger between the two groups, 
increasing the threat of the existing terrorist safe haven in Somalia. 
Reports indicate that al-Qaida senior leadership likely views Somalia 
as an important arena for jihad and an established safe haven from 
which to launch transnational attacks, factors likely providing al-
Qaida with motivation to strengthen its relationship with al-Shabaab. 
Moreover, public releases by al-Qaida and al-Shabaab indicate increased 
cooperation between the two groups, which al-Qaida intends to leverage 
to establish a base of operations.
    As I have remarked before, in the decades to come, the most lethal 
threats to U.S. safety and security are likely to emanate from states 
that cannot adequately govern themselves or secure their own territory. 
Dealing with such fractured or failing states, such as Somalia, is, in 
many ways, the main security challenge of our time because they can 
incubate transnational security threats. In places like Somalia, where 
al-Qaida aims to establish a foothold and a safehaven, we must confront 
it with persistent pressure and strong partnerships. The United States 
is a committed partner to the African Union Mission in Somalia and the 
Somali Transitional Federal Government in support of the Djibouti Peace 
Process. Our objective for Somalia is to work with other U.S. 
Government departments and agencies to enhance stability, peace, and 
prosperity in Somalia and, by extension, in the East Africa region.
                                 china
    Question. Secretary Gates, do you see China as a reliable partner 
in the region, and are they willing to assist us in dealing with the 
tensions on the Korean peninsula?
    Answer. We have appreciated China's willingness to cooperate and 
partner with the international community on regional security matters 
including on the Korean peninsula. For example, China supported the 
United Nations Security Council in crafting United Nations Security 
Council Resolution 1874, and China has served as the chair of the Six-
Party Talks process. We continue to urge China to work with the 
international community to address North Korea's proliferation activity 
and its provocative behavior.
                  iridium constellation replenishment
    Question. Secretary Gates, I have recently learned of the 
announcement of the intent of Iridium LLC to award a contract to the 
French satellite manufacturer Thales, to replenish its current 72 
communication satellite constellation. I am concerned over the 
potential national security issues that could result from the 
Department's continued use of a communications system that will now be 
built by a foreign supplier.
    What risk mitigation plans are in place that will ensure that U.S. 
military user locations are not compromised or communications will be 
more susceptible to intercept? What are the technology transfer issues 
associated with backward compatibility requirements with the present 
system? Has a review been conducted on the impact and implications of 
the Department's use of an Iridium satellite communications system that 
is built by a foreign source?
    Answer. The Defense Information Systems Agency's (DISA) Enhanced 
Mobile Satellite Services (EMSS) Program was established to provide 
global, secure, handheld mobile satellite communications services 
leveraging the Iridium constellation. DOD owns and operates its own 
Iridium earth station in order to ensure that U.S. military user 
locations and communications are protected. DOD would continue to 
operate this earth station as Iridium updates its constellation.
    Iridium Communications, Inc. has announced its intentions to 
develop and launch the next generation Iridium constellation called 
Iridium NEXT. The new technologies and capabilities developed in 
Iridium NEXT will include new technologies for the terrestrial 
infrastructure. The EMSS Program Management Office has requested 
capital investment funding for fiscal year 2010-15 to migrate the EMSS 
Gateway from the existing infrastructure to the Iridium NEXT 
infrastructure. As these upgrades are being executed, the DISA Field 
Security Office, working closely with the EMSS Program and EMSS Gateway 
personnel, will ensure that the existing security posture of the EMSS 
Gateway will not be compromised during the transition.
    Iridium NEXT is to be a fully backward compatible system. As the 
original constellation was commercially developed, there are no 
military unique features embedded in the existing Iridium constellation 
or in the Iridium terrestrial equipment. As a result, no technology 
transfer issues will exist in the migration of the infrastructure. The 
military unique systems that reside in the gateway will be migrated as 
required to ensure that they will continue to provide the services and 
protections that exist today, but the development of those systems 
exist outside Iridium's developmental processes.
    No formal review has been conducted on the impact and implications 
of the Department's use of a Thales constructed Iridium NEXT. The 
development of the Iridium NEXT satellites by a foreign country does 
introduce some security concerns. Currently, there are no U.S. 
Government agencies that have committed to hosting payloads on Iridium 
NEXT satellites. If the Government's investment in Iridium increases, 
the appropriate studies will be conducted by the responsible agencies.
    Iridium Communications' award to Thales requires Thales to include 
a U.S. aerospace firm to fulfill the role of the spacecraft integrator. 
All indications are that Thales will most likely partner with Ball 
Aerospace as its spacecraft integrator. Ball Aerospace, a U.S. 
aerospace firm based in Boulder, Colorado, will be responsible to 
receive, integrate, and maintain custody of any classified or ITAR-
sensitive components up to the launch of the satellite vehicles. These 
components include telemetry encryption/decryption equipment and any 
classified or sensitive hosted payload components. Ball has a long 
history of developing classified spacecraft and payloads for the U.S. 
Government and has extensive facilities capable of handling classified 
equipment.
    Additionally, key on-board processor and spacecraft software will 
be developed by U.S. firms and will likely draw on legacy software from 
the current Iridium system. The teaming arrangement with Ball as the 
spacecraft integrator as well as keeping the critical systems and 
software development within the United States will provide a program 
structure that provides the necessary level of security and mission 
assurance.
                     impact of program terminations
    Question. These are not the only examples of terminated programs 
generating new, costly follow-on programs. This year, you announced the 
termination of the Defense Integrated Military Human Resources System, 
yet the Services are already requesting over $170 million to continue 
that program.
    Mr. Secretary, what real cost savings have been generated given 
that terminated programs are being replaced by new, more costly ones?
    Answer. The Defense Integrated Military Human Resources System 
(DIMHRS) program was recommended for cancellation as part of the 
President's fiscal year 2011 budget request due to cost overruns and 
performance concerns. Over $500 million had been spent over more than 
10 years with little results. The program, however, was not recommended 
for cancellation because it was unneeded, but rather because it was 
underperforming and too costly. The requirement for modern military 
personnel and pay systems to replace over 90 legacy systems remains, 
and will be fulfilled by Service-level programs using the DIMHRS core 
software to the maximum extent practical. The Department considers 
Service-level programs, rather than a single Department-wide solution, 
to be the best balance of cost, performance, and schedule. This 
includes the Department's concern with balancing near-term needs with 
long-term costs over the lifecycle of a program.
    Reforming how and what the Department buys continues to be a 
centerpiece of our nation's defense strategy. The efficiency initiative 
the Department is pursuing, particularly the portions of that 
initiative directed at procuring more affordable products and buying 
services more efficiently, is specifically intended to ensure that 
terminated programs are not replaced by ones that are more expensive.
    Question. Mr. Secretary, a key driver of costs in major weapons 
programs is poor management of program requirements. What measures are 
you instituting to avoid requirements creep?
    Answer. In the early phases of acquisition programs, the Department 
is addressing requirement overreach by subjecting each major program to 
a Materiel Development Decision before Milestone A, which will ensure 
early on that programs are based on approved requirements and a 
rigorous assessment of alternatives. Furthermore, through competitive 
prototyping and preliminary design reviews before Milestone B, 
technical risks will be reduced before progressing to the more costly 
phases.
    Consistent with section 814 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009, DOD acquisition policy also 
requires the Acquisition Executive of each DOD Component to establish 
and chair a Configuration Steering Board (CSB) with broad executive 
membership from the office of the USD (Acquisition, Technology and 
Logistics) and the Joint Staff. CSB's are required to meet at least 
annually to review all requirements changes for ACAT 1 and 1A programs 
in development that have the potential to result in cost and schedule 
impacts on the program. Such changes will generally be rejected, 
deferring them to future blocks or increments. On a roughly annual 
basis, program managers and program executive offices are also required 
to identify and propose descoping options to the CSB that reduce 
program cost or moderate requirements. This policy has been actively 
implemented at the component level.
    At each stage of the acquisition process for major acquisition 
programs, requirements are reviewed by both the Joint Staff and the 
Defense Acquisition Executive to ensure that requirements creep has not 
resulted in excessive costs.
                                somalia
    Question. Secretary Gates, the conflict in Somalia has encouraged 
many foreign fighters to join the militant Islamist factions attempting 
to overthrow the internationally backed Somali Transitional Federal 
Government (TFG). These foreign fighters seem to be mostly ethnic 
Somali emigres living in Western countries, raising fears that some may 
return to their homes and carry out terrorist attacks. There are also 
public estimates of approximately 200 foreign fighters from 
Afghanistan, Pakistan, Iraq and Saudi Arabia, the most dangerous of 
whom are teaching bomb-making and other small arms tactics to recruits 
in camps across southern Somalia. Would you like to comment?
    Answer. We are concerned about the presence of foreign fighters in 
Somalia. Since mid-2008, open-source reporting reveals that foreign 
fighters of various nationalities, including individuals from European 
and North American countries, have entered Somalia to join al-Shabaab's 
ranks. Although the exact numbers and nationalities of foreign fighters 
in Somalia remain unclear, reports indicate that several hundred 
foreign recruits have come to Somalia to support al-Shabaab and other 
Islamic groups since mid-2008. Foreign fighters threaten the 
Transitional Federal Government and the African Union Mission in 
Somalia and undermine their efforts to reach out to all peaceful 
elements of Somali society and build an inclusive reconciliation 
process for a stable, peaceful, and sovereign Somalia. The prevalence 
of foreign fighters in Somalia threatens not just the Horn of Africa, 
but countries around the world, as these fighters can return to their 
home countries to radicalize and recruit others to fight in Somalia or 
engage in worldwide terrorist activities. The July 11, 2010 terrorist 
attack in Uganda, for which al-Shabaab took credit, further underscores 
this threat.
                      defense department spending
    Question. Secretary Gates, since the attacks of September 11, 2001, 
the base budget authority for the Department of Defense has nearly 
doubled. Your recent statements in the press have indicated that 
military spending should expect closer, harsher scrutiny, and that real 
reform is needed in the way the Defense Department does business and 
spends taxpayer dollars. Your fiscal year 2010 budget request began the 
reform effort by hiring more civilian government employees to replace 
full-time contractors. Aside from investment and modernization efforts, 
please explain other major reform initiatives you are now considering 
and how those will translate into lower costs for the Department of 
Defense.
    Secretary Gates, you have been quoted in recent speeches that 
overhead within the Department of Defense is ripe for scrutiny. Please 
explain specific adjustments that could be made in this area to create 
savings in the budget.
    Answer. In recognition of the nation's difficult economic 
situation, I have asked the Defense Department to take a hard, 
unsparing look at how we operate; and I am seeking to redirect the 
savings to provide the resources needed for force structure and 
modernization. I directed the Department to focus on headquarters and 
administrative functions, support activities, and other overhead 
activities. The Department should become a smarter buyer; therefore, we 
are taking a hard look at how we contract for goods and services. As I 
noted in my opening statement, I believe the current DOD topline is the 
minimum needed to sustain a military at war. What I am looking for is 
reduced costs in the ``tail'' portion of our budget in order to ensure 
that there are adequate resources in the ``tooth'' portion of the 
budget. The Department's Components are now wrestling with this 
challenge as they build their fiscal year 2012-2016 programs. You will 
see the results in the fiscal year 2012 budget request.
                         temporary task forces
    Question. It is hard to understand why we seem to be moving in the 
opposite direction of your assessment last year. What is being done to 
exercise control and limit the growth of these task forces, and to 
permanently integrate them into the Department?
    Secretary Gates, what is your view on JIEDDO undertaking long term 
development projects? Shouldn't these activities reside within the 
Military Services?
    Answer. In February 2006, the Office of the Secretary of Defense 
(OSD) transitioned the Joint Improvised Explosive Device (IED) Defeat 
Task Force by establishing the Joint IED Defeat Organization (JIEDDO) 
as an enduring, jointly manned activity within the Department of 
Defense (DOD). JIEDDO has been tasked with one critical purpose: to 
rapidly provide counter-IED (C-IED) capability in support of COCOMs to 
enable defeat of the IED as a strategic weapon of influence, and JIEDDO 
manpower resources have grown to meet this purpose.
    In order to comprehensively address the increasing significance of 
the IED as a weapon of strategic influence, JIEDDO developed tenants 
designed to address specific aspects of the threat: Attack the Network 
(AtN); Defeat the Device (DtD); and Train the Force (TtF). JIEDDO's 
personnel resources increased to drive innovation with JIEDDO partners 
and stakeholders to develop and field effective material and non-
material C-IED capabilities. The growth in personnel requirements has 
been necessary to support the development and procurement of 
technology, evolution and establishment of operational concepts, wide 
dissemination of lessons learned, and the delivery of training and 
training products in order to ensure speedy delivery of C-IED 
capabilities where it counts most--into the hands of the warfighter. 
The pace of JIEDDO organizational growth has been commensurate with the 
effort necessary to rapidly and effectively counter the substantial use 
of this weapon--rapid, effective and efficient responses have required 
increased personnel numbers to maintain the necessary speed at which 
solutions can be delivered.
    JIEDDO is currently in the process of streamlining its efforts to 
better respond to requirements for support coming from COCOMs. As 
significant force adjustments are being made across key theaters of 
operation, the use of IEDs have not waned. In fact, JIEDDO's mission 
requirements have increased in Afghanistan and JIEDDO's personnel 
levels will be a reflection of the C-IED demands coming from theater.
    We agree that long term S&T efforts should reside in the Department 
and the Military Services. JIEDDO's goal for development efforts is 24 
months. JIEDDO has reevaluated its R&D portfolio and given new guidance 
to their technical staff regarding this issue. JIEDDO's subject matter 
experts assess each new proposed effort in depth to ensure that it is 
executable in this timeframe. Subject matter experts from across DOD, 
DOE, and other research organizations provide assistance to JIEDDO as 
needed during this vetting process. If an ongoing JIEDDO effort cannot 
meet this goal then it is evaluated to determine whether it should be 
terminated or continued. This determination is based on several factors 
including: progress made, potential value added to the counter IED 
fight, probability of success, likelihood of it being deployed and 
integrated if successful, etc.
    Recently, DDR&E and JIEDDO established a Technology Focus Team 
(TFT) to coordinate counter-IED R&D efforts throughout the Department 
and develop a strategy for long term counter-IED S&T. The TFT is co-
chaired by DDR&E and JIEDDO and includes representatives from the 
Services, DARPA, and DTRA. The Department of Homeland Security also 
participates as an observer. The Military Services are responsible for 
executing the long term S&T strategy.
    JIEDDO adds value to the DOD portfolio by focusing the Department's 
efforts in solving the most urgent needs and ensuring the relevance of 
our S&T efforts to the Counter-IED fight. To do this, JIEDDO will 
maintain a cadre of scientists and engineers fully dedicated to 
understanding and countering the IED threat. This team will concentrate 
in the most immediate war fighting problems and accelerate the 
development of the most promising solutions. To facilitate cross 
pollination and engage the best and the brightest, the JIEDDO S&T team 
is augmented by scientists from across the DOD, the national labs, and 
other research organizations as needed.
                            healthcare costs
    Question. Secretary Gates, you have spoken recently about 
skyrocketing personnel costs that are ``eating us alive''. This has 
caused concern among service members and their families and several 
military and veterans advocacy groups. Could you please detail how 
healthcare costs impact the Department's budget, and how you plan to 
reduce them?
    Answer. Over the past decade, healthcare costs have grown 
substantially across the nation, and Military Health System (MHS) costs 
have been no exception. MHS costs have more than doubled between fiscal 
year 2001 ($19 billion) and fiscal year 2009 ($45 billion) and are 
projected to continue to increase 5 to 7 percent through fiscal year 
2015. At this growth rate, MHS costs will exceed $64 billion by fiscal 
year 2015.
    DOD is evaluating numerous proposals to make the system more 
efficient, from better supply management to getting better prices for 
healthcare services. In order for the Department to reduce healthcare 
costs, I believe one of the cost saving measures we need to take a 
fresh look at is the cost sharing structure for the TRICARE benefit 
plans. Enrollment fees for the TRICARE Prime program have not been 
modified since its inception in 1995. As of 2009, average out-of-pocket 
cost for a family of three covered by TRICARE Prime was $1,375 per 
year--compared to $3,430 per year on average for a family of three 
covered under the Federal Employee Health Benefit Plan's Health 
Maintenance Organization (Kaiser). I look forward to working with 
members of Congress to devise a cost sharing arrangement that is both 
fair and reasonable.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. Mr. Secretary, would you please elaborate on your vocal 
opposition to the Joint Strike Fighter alternate engine? While you have 
described this as a cost-savings issue, analyses by GAO and others show 
that either choice--to keep or get rid of the alternate engine--will 
probably be cost-neutral over the life of the F-35 program. But having 
an alternate engine will prevent a single point of failure for the F-
35, which will be very important when the plane comprises 95 percent of 
our strike aircraft fleet. Why choose to drastically increase risk for 
the F-35 for little or no money saved when all is said and done?
    Answer. The Department has consistently emphasized its opposition 
to the Joint Strike Fighter (JSF) extra engine because continued 
funding of the F136 would divert funds from important defense needs. In 
the middle of two wars, the Department has other higher priority uses 
for $2.9 billion, the amount that would be required to take the extra 
engine to full competition. Furthermore, there is no guarantee that 
having two engines will create enough long-term savings to outweigh the 
significant near-term investment.
    The Department does not consider a single source engine for the F-
35 to be a ``drastic'' increase in operational risk. The Department 
currently maintains two tactical aircraft programs, the F-22A and the 
F-18, each of which utilizes a single source engine provider. Both 
programs have enviable safety records, and the Department is satisfied 
with the engines for both programs. Over the years, significant 
advancements in engine design, testing, and production have enabled the 
Department to manage the risks associated with single engine systems 
without having to ground an entire fleet.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                   operation of firefighting aircraft
    Question. Last year, the House report accompanying the Defense 
Appropriations bill instructed your Department to analyze any 
legislative barriers that would impede the viability of expanding this 
joint operation program.
    Has your Department conducted this analysis and assessed the 
viability of expanding the joint operation of firefighting C-130 Js? Is 
your Department capable of jointly operating an additional 25 C-130s? 
Can you provide me with a date when the department expects to complete 
its analysis of expanding this program?
    Answer. As requested by House Report 111-230, which accompanied 
H.R. 3326, the Department of Defense Appropriations bill for fiscal 
year 2010, the Department of Defense (i.e., the Office of the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs, the Department of Defense Comptroller, the Office of the 
Assistant Secretary of Defense for Reserve Affairs, the Joint Staff, 
the U.S. Air Force, the National Guard Bureau, and the Air Force 
Reserve), the U.S. Forest Service (USFS), and the Department of the 
Interior (DOI) established an Integrated Working Group (IWG) for the 
purpose of assessing the viability of joint use Federal forest 
firefighting assets. The interim report was provided to Congress in 
April 2010. The final analysis and assessment are ongoing. We 
anticipate that the final report will be provided to Congress by 
August/September 2010.
    Question. Has the U.S. Forest Service officially approached the 
Department of Defense to ask for assistance in procuring new or used C-
130 Js to help fulfill the Service's aerial firefighting needs?
    Answer. No.
    Question. What legislative, regulatory, and policy barriers 
prohibit the U.S. Forest Service from calling on the Guard's C-130 Js 
to conduct initial attack on wildfires? In other words, why are the 
Guard's C-130 Js always the last resources called upon to fight burning 
fires? Since these planes were purchased by the taxpayers, how can we 
make sure that they are used more appropriately?
    Answer. The U.S. Forest Service is one of eight Federal agencies 
(i.e., including also the Department of Defense, the Bureau of Land 
Management, the Bureau of Indian Affairs, the U.S. Fish and Wildlife 
Service, Fire and Aviation Management, the U.S. Fire Administration, 
and the National Weather Service) participating in the National 
Interagency Fire Center (NIFC). The NIFC, which is located in Boise, 
Idaho, is responsible for coordinating the mobilization of resources 
for wildland fires and ultimately makes the determination on what 
capabilities and resources to request and employ on an incident-by-
incident basis.
    The NIFC maintains a contract for commercial air tanker services. 
The intent of this contract is to provide the Federal Government with 
large fixed-wing air tanker services, including the delivery of 
approved fire suppressant or retardant material on forest and range 
fires over all types of terrain throughout the United States. According 
to interagency policy and guidance, the objective of the Modular 
Airborne Fire Fighting System (MAFFS) program is to provide an 
``emergency capability to supplement commercial air tankers on wildland 
fires'' that may be ``used as a reinforcement measure when contract air 
tankers are committed or not readily available.''
    When compared to other fixed and rotary-wing aircraft available for 
aerial fire suppression, MAFFS-equipped aircraft may not be the most 
appropriate for all contingencies that require a Federal response to 
wildfires. At the request of the NIFC, DOD has provided, on a 
reimbursable basis, a broad range of support to the NIFC over the 
years, including DOD aircraft and crews equipped with U.S. Forest 
Service-owned MAFFS; helicopters with water buckets; military ground 
firefighting crews (usually a Federal military or National Guard 
battalion); DOD civilian firefighters; engineering assets; fire 
engines; incident management team members; and incident assessment 
assets. When requested, such assets may assist in firefighting if they 
are available and not committed to executing DOD's primary mission. DOD 
evaluates each request for assistance against six criteria for 
validating Defense Support of Civil Authorities: legality, lethality, 
risk, cost, appropriateness, and impact on readiness.
    Of note, although U.S. Forest Service requests for MAFFS support 
take precedence over State or international requests, the governors of 
California, North Carolina, and Wyoming may, after notifying the U.S. 
Forest Service, activate the Air National Guard airlift wings with 
MAFFS equipment and qualified crews assigned to their respective States 
for fires under State jurisdiction.
    Question. The National Guard 146th Airlift Wing in Point Mugu, 
California has been exemplary as they carry out the Guard's 
firefighting assistance mission. It is my understanding that if they 
were provided an additional 2 to 4 C-130 Js that they would be eager to 
expand their firefighting role. I also understand that Guard wings from 
Nevada, Washington, and other States are eager to undertake this very 
important mission. Do you support the expansion of C-130 firefighting 
program in California and across the West? What can you do to help 
facilitate this expansion?
    Answer. The Federal agencies with primary responsibility for 
fighting wildfires are the U.S. Department of Agriculture and the 
Department of the Interior. The Department of Defense has a supporting 
role. In light of the need for DOD to identify over $100 billion in 
savings over the next 5 years to ensure DOD can execute its primary 
mission of protecting and defending the nation, procurement of 
additional DOD C-130s for firefighting is not a priority.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Last May, Secretary Donley testified that the Air Force 
must consider Airbus as a viable competitor for the Tanker RFP. He 
stated that despite the WTO's findings, Airbus still has the right to 
appeal WTO findings and cannot be legally excluded.
    What will be the consequences if Airbus is granted the Tanker 
contract and the WTO decision is sustained?
    Answer. The Department of Defense believes that full and open 
competition in source selection is the best way to obtain the best 
value for our military and the taxpayers. The source selection will be 
made based on the evaluation factors set forth in the RFP. Since the 
source selection process is ongoing, it would be inappropriate to 
comment on it.
    There are two WTO Panel cases. The final WTO Panel Report on the 
United States case against the European Union (EU), i.e., France, 
Germany, Spain, and the United Kingdom, was published on June 30, 2010. 
An interim WTO Panel Report on the EU case against the United States 
for a different group of alleged subsidies is anticipated in September, 
and the final report is usually issued several months later.
    We have been advised by the Office of the U.S. Trade Representative 
(OUSTR) that there is an appeal process, and that it is expected to be 
beyond 2010, before the entire WTO process for determining the legal 
issues raised by any WTO-inconsistent subsidization is complete. In the 
event that there is a ruling against either Member, and the United 
States and the EU cannot settle the matter by themselves, then the WTO 
would determine the appropriate remedy.
    OUSTR is our national advocate for matters pertaining to WTO rules 
and procedures and represents U.S. interests in prosecution of, or 
defense against, charges of violations of such rules relative to any 
other Member of the WTO.
    Further, the KC-X contract will contain a unique contract clause to 
ensure that any economic impacts to the contractor resulting from the 
decisions of the WTO and the ultimate implementation of those 
decisions, will not affect the prices paid under the tanker contract. 
In this way the U.S. taxpayer is protected.
    Question. How will the DOD account for the harm already committed 
to the U.S. Aerospace industry?
    Answer. The parties of World Trade Organization (WTO) cases are 
bound by WTO rules. Under Article 23 of the Understanding on Rules and 
Procedures Governing the Settlement of Disputes (DSU), WTO Members 
seeking redress of an alleged violation must limit their recourse to, 
and abide by, the rules and procedures of the WTO. No Member has 
unilateral authority under the WTO to take retaliatory action.
    We have been advised by the Office of the U.S. Trade Representative 
that applicable appeal processes will continue beyond 2010. The appeal 
process must be complete before the WTO determines the appropriate 
remedy for any WTO-inconsistent subsidization. WTO remedies for 
actionable subsidies are forward looking in nature and not retaliatory 
for past subsidies. The WTO, not the United States alone, will 
determine what the appropriate remedy will be in these matters in the 
event that the United States and the EU cannot settle the matter by 
themselves.
    Question. I am concerned that you advocate shutting down the C-17 
production line; however, if you award KC-X to Airbus, we would have no 
wide-body military aircraft in production in this country. How does the 
DOD plan to address this potential loss of U.S. capability?
    Answer. I share your concern with respect to future domestic 
industrial base capabilities. The Department continually assesses our 
nation's industrial capabilities to include, among other things, a 
determination of the viability of any military-unique skills, 
processes, facilities or technologies. Ending production of the C-17 
would not materially reduce the capability of the U.S. defense 
industrial base to supply future wide-body military aircraft. From a 
production standpoint, most parts of military aircraft rely on skills 
and facilities similar to those used in commercial aircraft 
manufacturing, so continued domestic production of 747, 767, 777, and 
787 aircraft by Boeing and its subcontractors will maintain that 
capability along with continued production of components on Airbus' A-
330, A-340, A-350, and A-380 by American suppliers. From a design and 
development standpoint, the C-17 is well past its intensive design 
phase, and continued production will have little effect on American 
technical capabilities. Moreover, wide-body lift aircraft involve very 
little military-unique technology. Even as the Department begins 
shutting down the C-17 production line, the technology and processes 
used by the wide-body civilian aircraft manufacturing base are readily 
available, mature, and directly applicable to those used by military 
airlift manufacturers, and American aerospace companies have access to 
engineering talent that can develop the few military-unique aspects. I 
am confident that when the time comes in the future to produce 
additional military airlift, America's aerospace industry will be able 
to respond to the need.
    Question. How is the DOD working with the VA to ensure the 
transition of servicemembers from DOD to VA is seamless and there is 
continuity of care?
    Answer. In order to ensure seamless transition of Service members 
from DOD to VA and continuity of care, DOD established the Department 
of Defense (DOD) Recovery Care Coordinators (RCCs) and a Comprehensive 
Recovery Plan for each Wounded, Ill or Injured Recovering Service 
Member (RSM) who is unable to return to duty within a time specified by 
their Military Department and may be medically separated. RCCs provide 
non-medical support and services to RSMs and their families as they 
transition through recovery, rehabilitation, return to duty or 
reintegrate into the community. The RCCs, in collaboration with the 
medical and non-medical recovery teams, assess the needs of the RSM and 
create a Recovery Plan which guides the RSM through the phases of care 
and transition. Since the RSM owns his/her Recovery Plan, it transfers 
with the Service member if he/she transitions out of the military. If 
the Service member separates from the military, the RCC coordinates 
with the VA OEF/OIF Liaisons, VA Transition Patient Advocates, and 
community programs to assist in establishing continuing non-medical 
support for the Service member and family as they reintegrate into the 
community.
    Additionally, Federal Recovery Coordinators (FRCs), established in 
2007, provide service and support for the most severely injured Service 
members who are unlikely to return to duty. The FRCs, employed by the 
Department of Veterans Affairs (VA), reside in the Military Treatment 
Facilities and VA Medical Centers and provide non-medical care to 
severely wounded, ill and injured Service members and Veterans. The 
FRCs create a Recovery Plan that matches the DOD Recovery Plan.
    To further coordinate efforts, both the FRCs and the RCCs use the 
National Resource Directory (NRD) as a source for resources and 
services. The NRD is an online partnership with Department of Labor, 
DOD, and VA to provide resources for wounded, ill and injured Service 
members, Veterans, their families and those who support them. Over 
10,000 Federal, State and local resources are included in the NRD.
    Question. What is the status of the virtual medical records?
    Answer. The Virtual Lifetime Electronic Record (VLER) is in the 
pilot test phase. In January 2010, DOD's Naval Medical Center San Diego 
and Veteran Affairs San Diego Medical Center conducted a VLER Phase 1a 
pilot and exchanged specific test patient data elements of a 
``Continuity of Care'' document. This pilot demonstrated real time 
implementation of IT standards utilizing the Federal Health 
Architecture's (FHA) Nationwide Health Information Network (NHIN). The 
project highlighted opportunities for improving those standards. The 
next phase, VLER Phase 1b, will build on the Phase 1a data set and 
expand it to additional military treatment facilities, VA Medical 
Centers, and health information exchanges in the Tidewater area in 
Virginia by the fourth quarter of fiscal year 2010 and the Spokane area 
of Washington State by the second quarter of fiscal year 2011.
    The VLER will leverage investments made in the Departments' 
existing electronic health record systems. VLER is a combined 
Department of Defense (DOD) and Department of Veterans Affairs (VA) 
initiative to integrate a portfolio of information sharing capabilities 
for the secure exchange of medical and benefits information among 
various departments of the Federal government and commercial sector 
healthcare providers.
    Question. I appreciate Secretary McHugh's quick response and 
promise to resolve the issue at hand. Unfortunately, I see this as a 
broader problem between Active components and their Reserves 
counterparts. I understand the Reserve forces have different 
requirements because of their nature, but they still deserve the same 
respect, especially since they deploy and operate in the combat zones 
on a regular rotation like their Active counterparts.
    It appears that when both components are deployed, the Active/
Reserve distinction falls away. However, this perception continues to 
remain at home. What efforts have been taken to address this perceived 
inadequate treatment?
    Answer. The DOD is aware of the perceived inequities among the 
Service components and, in the spirit of Total Force, working to reduce 
and eliminate them. Examples are Post Deployment Initiatives, Equipping 
Units and Pre Deployment Training Certifications listed below.
    Post Deployment Initiatives.--Designed to inform Reserve Component 
(RC) members how to access resources in Finance and Budgeting, 
Healthcare, Mental Health, Reintegration, Stress Relief, Counseling. 
The Yellow Ribbon Program (YRP) is a Defense-wide program which ensures 
Service members and their families are ready and resilient throughout 
the deployment cycle using information and access to local, State, and 
Federal organizations. As of April 2010, more than 135,000 Service 
members (83,000 were National Guard members) attended YRP Events.
    Equipping Units.--It is DOD policy that the Guard and Reserve will 
be equipped to accomplish all assigned missions and will have an 
equipment procurement and distribution program that is balanced, 
sustainable and responsive to mission requirements. DOD has made it a 
priority to ensure that any unit, regardless of component, is properly 
equipped for in-theatre missions and for the National Guard domestic 
missions as well.
    Pre Deployment Training Certifications.--Previously, when RC units 
were called up, they had to complete training and be certified at the 
home station, by RC reviewers. Then, just prior to deployment, they 
were required to be certified again by the Active Component (AC) 
reviewers, even though it was for the same qualification. To resolve 
the inequality, AC now accepts the certification of Guard and Reserve 
commanders.
    Of the many initiatives undertaken, these are just a few examples 
that demonstrate the DODs commitment to create a Total Force which 
should ultimately eliminate all perceived inadequacies.
    Question. Proper equipping, regular military construction projects 
and demobilization health concerns seem to remain within the Reserve 
Component. How does the Department of Defense intend to address these 
concerns?
    Answer. The Department is addressing these concerns by ensuring 
that all units are properly equipped prior to going into deployed 
situations, and that each member is supported with comprehensive health 
programs throughout their life. The proper equipping, the effective 
training and the physical-mental well being of each and every Service 
member is a priority of the Department, throughout every stage of 
deployment. This priority is applied to create the Total Force, which 
includes the Reserve Components.
    DOD will always make ensure that the men and women fighting or 
getting ready to fight in theater have the best equipment available, 
regardless of component. The Department has a thorough requirements 
process that balances current operations with future plans. While the 
Reserve Components do not have their own procurement appropriation, we 
have implemented and continue to improve upon the recommendations in 
this area from the Commission on the National Guard and Reserves and 
other stakeholders. This will give DOD and Congressional leaders 
greater visibility and an improved ability to track delivery of 
equipment through the system to the Guard and Reserve.
    There is a direct correlation between readiness and facilities, 
particularly in the Reserve Component (RC). Because the mission of the 
RC is to equip, train, and prepare for war, it is imperative that the 
RC have and maintain quality facilities to meet their operational, 
maintenance, training, and mobilization requirements.
    Post-Deployment Health Assessments are given to each Service member 
prior to redeployment or release from active duty. The assessment 
gathers information on the health concerns or problems that the Service 
member feels are related to deployment. Face-to-face health assessments 
with healthcare providers are provided to determine the need for 
referral for appropriate medical follow-up. Military and Veteran's 
Affairs (VA) providers use the jointly developed Post-Deployment Health 
Clinical Practice Guideline to focus healthcare on post deployment 
problems and concerns of the Service members returning from 
deployments. Initiatives such as Yellow Ribbon events are vital for 
post mobilization healthcare. These events are conducted during pre, 
mid and post deployment phases and are designed to inform RC members 
how to access resources in healthcare, mental health, reintegration, 
stress relief, counseling and suicide prevention.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Secretary Gates, last month the Administration sent over 
a late legislative proposal that would provide up to $205 million to 
the Israeli government for accelerated development and fielding of the 
Iron Dome defense system which is designed to counter short range 
rockets and large caliber artillery shells. The requested authorization 
stated that funding would be provided from offsets as approved by you, 
the Secretary of Defense. Can you share with the committee what 
programs you would consider cutting in fiscal year 2011 to fund this 
new initiative?
    Answer. At this time, no decision has been made as to what programs 
would be reduced to finance the Iron Dome transfer. Assuming the 
Congress provides the requested authority, we will make the specific 
program reductions during the execution of the enacted fiscal year 2011 
budget.
    Question. Secretary Gates, last spring you announced an initiative 
to replace contractors and hire more than 13,000 government civilians 
in fiscal year 2010. This initiative was expected to achieve $900 
million of savings in 2010 alone. Can you update the Committee on the 
number of positions that have been in-sourced and what savings have 
being realized?
    Answer. As of March 31, 2010 (end of the 2nd quarter), the 
Department has established approximately 15,270 new civilian 
authorizations as a result of in-sourcing contracted services. The 
Department's in-sourcing efforts to rebalance the workforce, rebuild 
critical capabilities internally, and reduce operational risk are 
focused on services being performed by the private sector that are more 
appropriately performed by DOD personnel. In-sourcing is a component of 
the Department's broader Total Force management policies, focused on 
ensuring we have the capacity, skills, and resources to carry out our 
missions and operations.
    While the fiscal year 2010 budget reflected reductions of 
approximately $900 million as a result of in-sourcing, our efforts are 
not focused on, or driven solely by, cost. More than 50 percent of the 
in-sourcing actions executed to date in fiscal year 2010 did not 
consider cost as a deciding factor but were required to return 
inherently governmental or exempt (job functions closely associated 
with inherently governmental or needed to support readiness/management 
needs) services to government performance. Due to our focus on other 
factors such as job function rather than cost alone the Department is 
not centrally tracking savings realized from individual in-sourcing 
decisions.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
    Question. In order to keep America on the cutting edge of new 
weapons and defense systems, I fail to recognize the strategic value in 
closing the only active production line for long-range strategic 
airlifters when there is no replacement being developed and as the 
operational fleet is being used up faster than expected.
    You may recall that I vocalized the point during the Defense 
Subcommittee on Appropriations hearing on the DOD budget. You responded 
by explaining that America's wide-body civilian aircraft manufacturing 
base would more than adequately supplant military aircraft 
manufacturers in the event that the nation may need to surge its 
production of military airlifters in response to a national emergency 
or even another humanitarian crisis somewhere around the world. Is this 
an accurate interpretation of your response?
    Answer. Yes. Requirements for commercial cargo aircraft continue to 
rise for outsize and heavy lift capability, including planes that can 
operate in remote and austere environments. Numerous industries--
including construction, mining, oil and gas equipment, power 
generation, railroad, and satellite companies--have requirements to 
quickly transport heavy, oversize equipment. The technology and 
processes used by the wide-body civilian aircraft manufacturing base 
are readily available, mature, and directly applicable to those used by 
military airlift manufacturers. I am confident that when the time comes 
in the future to produce additional military airlift, America's 
aerospace industry will be able to respond to the need.
    Question. If not, will you please clarify your answer that: ``There 
is significant wide-body aircraft production capability in the United 
States. And we have more than enough time to adjust it to a military 
production line if we need to.''
    Answer. The development and manufacturing know-how resident in the 
commercial aviation sector--particularly in the field of wide-body 
aircraft--can be easily adjusted to support future military airlift 
requirements that may arise. Moreover, the C-17s set to roll off the 
production line, coupled with those already in the field, will have a 
very long lifespan and provide a substantial capability to support 
strategic airlift requirements over the next 30 years.
    Question. In particular, please provide me with a better 
understanding of your basis of evidence for concluding that our 
civilian airplane manufacturers can adequately replace the expertise 
and engineering know-how of the manufacturers of military strategic 
airlifters, which require specifications not common to civilian 
aircraft.
    Answer. The Department's industrial capabilities assessments 
include, among other things, a determination of the viability of any 
essential industrial/technological capabilities. Transport airframes, 
as well as many of their high-value subsystems, are commercial, off-
the-shelf (COTS) or COTS derivative items. These high-value subsystems 
include engines, avionics, auxiliary power units, environmental control 
systems, and ground proximity warning systems. Transport airframes and 
subsystems rely heavily on commercial technologies, processes, and 
products and will be sustained by other ongoing and planned military 
and commercial aerospace programs. The non-COTS items in a military 
transport such as cargo floor reinforcement and loading systems are not 
considered essential military capabilities.
    Question. Global lift distinguishes America above all other 
militaries. How can we preserve that capability if we allow all the 
engineers' and designers' specialized skills to atrophy and then never 
recover them?
    Answer. Continued production of global lift aircraft would do 
little to stem the loss of military-unique skills, processes, 
facilities and technologies due to the high commercial off-the-shelf 
content. Military-unique aerospace design skills at risk include 
hypersonics, canopy and cockpit design and integration, stores 
management and weapons separation, aerodynamics, etc.--none of which 
would be maintained by continued production of global lift aircraft. 
From a design and development standpoint, global lift aircraft are 
based on commercial products or derivatives of commercial products and, 
therefore, should not cause any reduction in any inherent design 
capabilities. There is very little military-unique technology involved 
in developing or manufacturing airlift aircraft.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
    Question. Last year, Fort Campbell suffered 11 soldier suicides, 
apparently one of the highest figures of any military post. Have other 
military installations, with units facing similar operational tempo as 
those housed at Fort Campbell, experienced comparable absolute numbers 
of suicides and similar rates of suicide? If not, and if the suicide 
rate at Fort Campbell is uniquely high, has the Army conducted a formal 
inquiry into the suicide rates to determine what accounts for the high 
number?
    Answer. Yes, while Fort Campbell had the highest number of suicides 
in 2009, other bases with similar populations and unit deployment 
profiles had high suicide rates as well. For all of 2009, Fort Campbell 
(21), Fort Hood (11), Fort Stewart (10), Fort Carson (9), and Schofield 
Barracks (7) accounted for 39 percent of Active Duty deaths (162). As 
of June 25, 2010, Fort Hood (11), Joint Base Lewis McChord (8), Fort 
Bragg (6), and Fort Carson (5), in the top of the list, account for 51 
percent of the 74 Active Duty suicide deaths this year. When compared 
to the same point last year (June 25), the Army had 87 suicide deaths. 
The Army's senior leadership is committed to sustaining our current 
emphasis on this problem.
    The Army sent a team from the Public Health Command to Fort 
Campbell in June 2009 to examine issues related to their suicide trend. 
This team scrutinized organizational factors such as the length of time 
small unit leaders were in their leadership position, total time each 
unit leader had in their Army career, and specific types of formal or 
informal people skills and leadership training leaders received to 
determine if any of these factors played a role. This team did not find 
any significant patterns or trends that accounted for Fort Campbell's 
rate.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                         global defense posture
    Question. I believe the GAO review of our European force structure 
plans will show the anticipated savings moving the Army from Heidelberg 
to Wiesbaden will not materialize, so I am at a loss as to why a 
component of EUCOM needs its own headquarters of the proposed 
magnitude. I hope as part of your review of reducing overhead cost and 
redundant capabilities you relook at that decision and evaluate 
Stuttgart at a consolidation location, where EUCOM, Army Europe and 
even AFRICOM can share the most technical and expensive resources. The 
Army request for a $91 million SCIF and a $120 million Command and 
Battle Center at Wiesbaden are prime examples.
    Mr. Secretary, in light of your comments on needing to reduce 
redundant capabilities and overhead cost I am interested in why you 
believe, in our current fiscal situation, we need to expend our limited 
taxpayer dollars in Europe when we can achieve the same readiness 
capabilities by stationing more of our forces in America, where we can 
provide jobs for local communities and stability and support for our 
soldiers and their families. Will you reconsider the Army's planned 
move to Wiesbaden or review the Milcon requirements at that location 
that could be shared with the facilities at Stuttgart?
    Answer. The consolidation of 7th Army Headquarters/U.S. Army Europe 
(HQ/USAREUR), along with its signal and intelligence elements, at 
Wiesbaden, Germany will allow the closure of three bases in Europe, 
resulting in a reduced footprint, while providing the facilities 
necessary to support current and future operations in the U.S. European 
Command (USEUCOM) area of responsibility (AOR). The Department is 
currently executing fiscal year 2009 funding associated with the 
Wiesbaden consolidation. Military Construction funding included in the 
fiscal year 2011 President's budget request would fund construction of 
the second increment of the Command and Battle Center, an Information 
Processing Center, and a Sensitive Compartmented Information Facility. 
The Department determined that it continues to make operational sense 
to move forward with this initiative, and that savings realized should 
equal implementation costs by fiscal year 2016.
    The Department re-examined the consolidation of 7th Army HQ/USAREUR 
at Wiesbaden in the 2010 Quadrennial Defense Review and validated the 
original decision. Consolidation at Stuttgart was not considered as 
USEUCOM, U.S. Africa Command (USAFRICOM), and other supporting elements 
are located there; we are concerned about additional stress on these 
facilities, which could overwhelm capacity. We will continue to examine 
opportunities for military construction efficiencies and shared 
facilities.
                              south korea
    Question. I am concerned about our future commitments in 2012 and 
beyond. The cost of housing, schools, hospitals, clinics, fitness 
centers, recreation facilities, child care centers, youth centers, and 
other support facilities such as commissaries and PX exchange services 
will be staggering. We have not been given any cost estimates on these 
facilities so we have no way to evaluate the total cost of a decision 
of this magnitude.
    Mr. Secretary, have you approved this new plan and can you give us 
an out-year cost we will be asked to commit the U.S. taxpayer to for a 
major shift in strategy such as this?
    Answer. I am also concerned about costs, but my true motivation is 
to support the deployed troops and their family members in a time of 
shrinking budgets and fiscal constraints. Yes, I approved a Tour 
Normalization effort that allows for command-sponsorship of 
approximately 4,900 families in South Korea by 2012. The funding for 
this requirement is contained in the President's fiscal year 2011 
budget request, which includes $536 million across fiscal year 2011-
2015 for Tour Normalization primarily to provide housing in the form of 
the Overseas Housing Allowance. As you note, these families require 
supporting infrastructure, and the intent of the Yongsan Relocation 
Plan and the Land Partnership Plan is to cover these requirements (both 
of which include cost sharing from the Republic of Korea). This covers 
the infrastructure costs for schools, hospitals, clinics, fitness 
centers, recreation facilities, child care centers, youth centers, and 
other support facilities. I will continue to closely monitor changes in 
timelines and requirements as I consider how to most cost effectively 
implement this plan. If there are additional costs, then they will be 
included in the President's fiscal year 2012 budget request after the 
Department considers all issues for the next budget submission.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. For the record, Secretary Gates, was anyone at the 
Pentagon consulted about the national security implications prior to 
NASA making a decision to cancel the Constellation program? Could you 
state, for the record, what are those national security implications?
    Answer. During the Augustine Committee data collection efforts, 
research analysts working on behalf of the OSTP asked staff from the 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics/Industrial Policy for a copy of the Department's most 
recent Solid Rocket Motor Industrial Capabilities Assessment report to 
Congress, which is dated April 2, 2009. Additionally, the committee 
analysts discussed the findings and results of the report with the 
Industrial Policy staff. No official interaction took place on the 
matter above the analyst and staff levels of our respective 
organizations. To the best of our knowledge, there was no other 
interaction.
    Our most complete assessment of the evident national security 
implications is captured in our June 2010 report titled, Solid Rocket 
Motor Industrial Base Interim Sustainment Plan To Congress.
    Question. Just last week, Administrator Bolden sent a letter 
notifying the Congress of the agency's intention to ``pace'' 
Constellation efforts for the remainder of this fiscal year. This 
latest action will have an immediate and devastating impact on the 
aerospace workforce, including the likely layoff of as many as 2,500 
workers from within the solid rocket motor industry alone.
    Secretary Gates, was anyone at the Pentagon consulted prior to this 
most recent decision by NASA to ``pace'' the remainder of the fiscal 
year 2010 Constellation effort?
    Answer. To the best of our knowledge, no official interaction took 
place between NASA and the DOD relative to NASA's intention to ``pace'' 
the Constellation effort.
    Question. Secretary Gates, it is extremely likely that this panel 
will have acted on the Administration's fiscal year 2011 budget submit 
long before the Department delivers its plan to sustain the solid 
rocket motor industrial base. Even in the absence of the Department's 
recommendations, this panel is being asked to make significant 
budgetary decisions that affect the future viability of this industry. 
Specifically, not yet clear is the Department's commitment to 
sustaining the Minuteman propulsion system. Also not yet clear is 
whether the Missile Defense Agency will respond to congressional 
concerns, and sustain production of the Ground-based Mid-course Defense 
missile supplier base, or sustain the SM-3 Block IA until Block IB is 
proven.
    In the absence of your Department's official recommendations via 
delivery of the solid rocket motor industrial base sustainment plan, 
what path would you suggest for this committee? What can you share with 
this panel now about the pending plan's recommendations? For example, 
will the implementation plan emphasize investment in research and 
development, continued production via essential warm line programs, or 
both? It seems only prudent that this committee recommend sustained low 
rate production for all our large solid rocket motor systems--including 
both the land-based and submarine-launched strategic deterrent 
missiles, and all our deployed missile defense boosters. These low rate 
production programs ensure that the industrial base is able to meet the 
aging and obsolescence-related needs of current deployed systems, and 
prepared to develop our next generation systems.
    Answer. The Department submitted an interim SRM Sustainment Plan in 
June 2010 that laid out the options DOD is considering as it develops 
its final sustainment plan. The Department is working aggressively to 
complete a full sustainment plan in keeping with the end of September 
deadline discussed in the preliminary plan. It is premature to provide 
the specific approach the Department will pursue as the plan will 
include resource commitments and potential policy considerations.
    As indicated in the interim plan, the Department needs to continue 
its efforts to develop an investment strategy that supports our 
strategic requirements now and well into the future, while at the same 
time motivating the suppliers to ``right-size'' the industrial capacity 
to better reflect the reality of the future needs. This investment 
strategy must include adequate basic science and technology, 
demonstration and validation programs, and production programs to 
sustain a viable, innovative, and competitive industry. The Department 
believes that the appropriate investment strategy will include elements 
of the following:
  --Funds sufficient to maintain properly qualified production 
        processes.
  --Funds sufficient to exercise production skills.
  --Funds sufficient to support aging studies, to maintain safety and 
        reliability at appropriate levels.
  --Funds sufficient to support design and development efforts directed 
        at improving and sustaining current designs.
  --Funds sufficient to support design and development efforts for a 
        successor class missile, the SRM concepts from which could be 
        employed for both Navy and Air Force needs, as well as other 
        DOD programs.
    The DOD strongly supports both investments in research and 
development and in production. The DOD is committed to supporting our 
ongoing force structure and ensuring we have a robust base in support 
of that effort. However, this does not necessarily mean we support 
continued warm-line programs on all our large SRM programs. The 
Department believes that production continuance alone, no matter where 
directed, will be insufficient to protect and/or restore critical 
technical and creative skills necessary for future missile production 
and current missile sustainment.
    The Department also believes the ``right-sizing'' process will 
likely come with a cost that will be seen both as a unit cost increase 
for DOD systems and potentially, near-term increases in facility costs.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Chairman Daniel K. Inouye
                                somalia
    Question. Admiral Mullen, recent press reports have highlighted the 
growing presence and influence of foreign fighters and al-Qaeda in 
Somalia's Islamist al-Shabab group. How would you assess the threat 
posed by these groups to western interests in East Africa? Is Somalia 
becoming the ultimate safe haven for al-Qaeda and foreign fighters?
    Answer. [Deleted].
    Question. Admiral Mullen, do you have sufficient resources to 
adequately focus on the situation in Somalia?
    Answer. I appreciate your support for the resources requested in 
the President's budget to support Somalia, including those for enabling 
activities, such as ISR. We are comfortable that our request will 
provide the appropriate level of resources to address challenges in 
Somalia, a complex nation that includes a transitional government 
struggling to establish itself with the support of the African Union.
    Question. Admiral Mullen, do you consider the Somali al-Shabab 
group a regionally focused threat or a direct threat to the U.S. 
homeland?
    Answer. [Deleted].
         impact of changing health benefits on service members
    Question. Admiral Mullen, this is a very different military from 
the one I joined many years ago. Today, most service members are 
married and have children. The cost of maintaining this all-volunteer 
force is much higher than in my day. As such, there is a lot of 
discussion about the rising personnel costs and finding ways to curtail 
the growth.
    What would the impact of reducing benefits be on the individual 
soldier? We're currently providing terrific healthcare coverage, so 
would a change to that break the faith with the soldier and negatively 
impact his or her willingness to serve?
    Answer. Yes, a reduction in medical benefits could break the faith 
with the soldier and negatively impact his or her willingness to serve.
    In my CJCS 2009-2010 Guidance, I reemphasized that it is our core 
responsibility to win wars while caring for our people and their 
families. I believe that as a Nation, we have the solemn obligation to 
fully support our service members and their families. I also believe 
that our culture must value and support a continuum of care that lasts 
a lifetime and encompasses military members, retirees and their 
families. In order to make this cultural shift, there must be constant 
attention and cooperation between the Joint Staff and the Chiefs, and 
close work with the Office of the Secretary of Defense and the 
Department of Veteran Affairs.
    The country faces mounting deficits and growing debt. This is going 
to require difficult budget decisions for our government. As we carry 
out our assigned missions and reset a tired force, we must guard 
against growing hollow. The quality of the force remains paramount.
    The Military Health System (MHS) portion of the Defense budget is 
steadily increasing. Currently, private sector healthcare costs are 
increasing at a rate of about 10 percent per year.
    In order to engage this issue, we have looked at implementing 
several healthcare initiatives that could generate future savings for 
the department. These initiatives include:
    Administrative.--Medicare Payment Matching Initiative/Sole 
Community Hospital; Fraud Waste and Abuse investigation and reduction; 
and Medical Supply Chain Standardization.
    Benefit.--Uniformed Services Family Health Plan (USFHP) Medical-
Eligible Initiative; TRICARE Beneficiary Fee Increase; and TRICARE 
Survey/Demonstration for Opt-Out Initiative.
    There has been no discussion of reducing the benefit to the AC and 
RC, rather we are increasing benefits in the areas of mental health and 
traumatic brain injury, and rehabilitative care while adding innovative 
programs such as medical centered home to improve continuity and 
quality while potentially decreasing long term costs. Likewise, there 
is no indication from DOD leadership that they intend to reduce the 
medical benefits to the AC and RC and their families. The wars in 
Afghanistan and Iraq will end and we must think today about how the 
U.S. military will need to adapt to future threats. The health-of-the-
force investments that we make today will pay dividends in the national 
security tomorrow and well into the next generation.
                                 china
    Question. Admiral Mullen, recent press reports have highlighted 
growing Chinese investments in their military capabilities. As we 
continue to focus our efforts on Iraq, Afghanistan, Yemen and now 
Somalia, do we have sufficient resources focused on the challenges 
posed by an increasingly capable Chinese military?
    Answer. Secretary Gates and I have placed a priority on ensuring 
that our service members have the tools they need to do their job, 
while continuing to prepare for potential contingencies across the 
spectrum of conflict. China has made significant investments in modern 
warfighting capabilities, particularly over the past two decades. While 
not directed at China specifically, it is of vital importance that the 
United States is positioned to prevail against any potential adversary, 
including those with advanced conventional and/or Anti-Access/Area 
Denial (A2/AD) capabilities. Some examples of programs in the fiscal 
year 2011 budget that sustain the United States' long-standing edge in 
conventional warfighting include:
  --Electronic Warfare.--Procurement of 12 EA-18G ``Growler'' aircraft 
        to recapitalize four expeditionary electronic attack squadrons.
  --Cyber Command.--Establishment of U.S. Cyber Command to organize and 
        standardize DOD cyber practices and operations in defense of 
        the Global Information Grid (GIG).
  --Joint Strike Fighter.--Procurement of 42 aircraft in fiscal year 
        2011. JSF will ensure continued air dominance over current--and 
        future--battlefields.
  --Shipbuilding.--Procurement of 10 ships, all of which would be 
        extremely relevant in a conventional campaign--2 Virginia-class 
        SSNs, 2 Arleigh Burke class destroyers, 2 Littoral Combat 
        Ships, 1 Landing Helicopter Assault-Replacement (LHA-R), 1 
        Mobile Landing Platform (MLP), and 2 Joint High Speed Vessels 
        (JHSVs).
    Question. Admiral Mullen, do you see a time in the near future 
where we will be able to improve our military to military ties with 
China?
    Answer. I believe there is potential for an improved military-to-
military relationship with China in the near future; however, China has 
recently been unwilling to engage with the U.S. military. While 
disagreements will exist, these must not prevent cooperation in support 
of our mutual interests and our international responsibilities. I 
believe that China's military leadership will recognize the importance 
of continuing to work together with the United States to promote 
regional stability, in spite of our differences. Therefore, my 
invitation to my counterpart, PLA Chief of General Staff, General Chen 
Bingde, remains open and I look forward to meeting him here in 
Washington, and reciprocating the visit in Beijing to discuss how we 
can better define our military-to-military relationship.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Admiral Mullen, there is a so-called ``fighter bathtub'' 
issue looming over the future of the Air National Guard. In my role as 
the Co-Chair of the Senate National Guard Caucus, I am very concerned 
that our plan for the Air Force does not fully leverage the benefit of 
the Air National Guard's greater cost-effectiveness or the greater 
experience of its pilots and maintenance crews compared to the Active 
Component.
    Can you explain your vision for the role of the Air National Guard 
in the future Air Force mission? Do you believe that the current Air 
National Guard legacy fighter fleet should be re-capitalized, or do you 
believe that as fighter wings are retired, those states' Air Guard 
units should assume new missions with smaller counter-narcotic aircraft 
or even unmanned airframes?
    Answer. The Air National Guard (ANG) and Air Force Reserve 
Component (AFRC) are full partners in the Air Force's Total Force 
Integration (TFI), providing critical capabilities for the Joint 
Warfighter across the full spectrum of conflict. The fiscal year 2011 
President's budget reflects a complete review of the Air Force fighter 
requirement which was developed based on the Secretary of Defense's 
guidance for Development of Forces, through examination of the current 
and future strategic environment, and using high fidelity campaign 
modeling.
    Today the ANG flies both the newest and some of the oldest fighter 
aircraft in the Air Force inventory. The fiscal year 2010 budget 
retired 257 of the Air Force's oldest fighter aircraft and 
recapitalized a number of ANG units with newer and more capable 4th 
generation fighters from the active inventory. In fiscal year 2011 F-
22s are being delivered to the 154th Wing in Honolulu, Hawaii, and F-22 
ANG and AFRC TFI programs presently exist at Langley, Holloman, and 
Elmendorf AFBs. As the F-35 is delivered to both the Active and Reserve 
Component, additional 4th generation aircraft will become available to 
recapitalize older ANG and AFRC fighters.
    The Air Force is refining the current TFI approach to develop a 
future TFI game plan based on strategic and operational use of the 
Active and Reserve Components. The Air Reserve Component will provide 
critical capabilities for the Joint Warfighter in fighters as well as 
new and emerging missions that capitalize on the ARC's experience, 
expertise, and expeditionary capacity.
    Question. Admiral Mullen, Senator Bond and I recently sent a letter 
to Chairman Inouye and Vice Chairman Cochran on behalf of the Senate 
National Guard Caucus requesting $870 million for the National Guard 
and Reserve Equipment Account. Even though the National Guard and 
Reserves have shouldered more than their share of the operational 
responsibilities at home and abroad, they still lag behind the Active 
Component in terms of getting the equipment they need. Why do they 
still face this shortfall, and what is the Department's long-term plan 
for fixing it?
    Answer. Over the past decade the Department of Defense has made 
tremendous strides in providing the best available equipment across all 
components. There was a time when the Reserve Components lagged 
significantly behind the Active force in both the quantity and quality 
of their equipment requirements, but in my assessment, this gap has 
closed significantly.
    Since 9/11/2001, our priority of effort has been to equip deploying 
units first. The Department has steadily improved the readiness posture 
of the Reserve Components, clearly transforming them from a Strategic 
Reserves to an Operational Force. Given the exigencies of fighting two 
simultaneous wars with all components participating, Department leaders 
realize that all of our forces need to be equipped appropriately. In 
2007, the Department issued directives to better manage the Reserve 
Components as an Operational Force. One key aspect of this shift has 
been to properly equip the Reserve Components with modern, 
interoperable equipment which has contributed to both the 
transformation and success of our national security strategy.
    The Department has also been focused on critical equipment 
requirements that sustain efforts which protect the home front. We have 
improved the percentage of National Guard Critical Dual-Use equipment 
available to the Governors by 22 percent over the last 5 years. This 
has occurred through an increase of overall Reserve Component equipment 
funding from approximately $3.3 billion in 2005 to just over $9.9 
billion in 2009, as well as additional funding from the Congress.
    The Army Equipping Strategy published in 2009 specifically 
acknowledged the need for Critical Dual-Use equipment to be filled at 
80 percent or better. While the overall on-hand rate stands at 83 
percent, due to the quantity of equipment deployed to support 
contingency requirements, only 65 percent of Critical Dual-Use 
equipment is currently available for use here at home. However, the 
Army projects being able to reach a fill rate of 87 percent by March 
2011. No unit has failed to complete any assigned homeland mission in 
the past due to equipment shortages because the risk has been mitigated 
through the use of the Emergency Management Assistance Compact between 
States.
    The Deputy Secretary of Defense, in an effort to lessen equipment 
shortages, directed implementation of a plan that has been executed 
since August 2009 that properly equips deployed units, while sustaining 
a trained and ready force. In doing so, the Department is striving to 
ensure the Reserve Components have the right equipment, available in 
the right quantities, at the right time, and at the right place to 
support the Total Force mission. As an example, the Army committed to 
resolve truck shortages--Family of Medium Tactical Vehicles (FMTVs)--
that support our ground forces. The Army's FMTV modernization plan 
projects that both the Army National Guard and Army Reserve will be 
equipped at 100 percent fill by fiscal year 2015. In the interim, the 
Army National Guard is modernizing its 900 Series trucks in order to 
maintain operational fleets.
    The Air Force has strived to place emphasis on modernizing legacy 
aircraft and associated equipment across the Total Force. As an 
example, modernization efforts of the C-5A, flown by 3 National Guard 
units, are underway with modifications to its aircraft defensive 
systems which permit operations in hostile environments. Without these 
modifications, C-5As are not permitted to enter certain airfields in 
key areas of operation. An upgrade to this system is estimated at $34 
million.
    The Department's next step is to maximize efforts to implement 
recommendations articulated in the Quadrennial Defense Review and other 
strategic planning efforts that support the nation's use of the Reserve 
Component. This is especially important as the Services address the 
long-term funding needed to reduce equipment deterioration created by 
multiple or sustained deployments. We will continue to replace aging 
and maintenance-intensive equipment across the Services and modernize 
capabilities to ensure effective inter-operability.
    Additionally, we are pressing to implement the recommendations 
outlined within the Commission on the National Guard and Reserve 
Report, many of which target the improvement of equipment readiness and 
transparency of the Reserve Components. This includes meeting funding 
requirements for Reserve Component equipment procurement as well as 
ensuring the visibility, transparency, and accountability of National 
Guard and Reserve equipment from planning, programming, and budgeting, 
through acquisition and fielding.
    We will continue to work to close the remaining equipment gaps 
between the Active and Reserve Components. Your continued support and 
programmed funding in this endeavor has been essential and greatly 
appreciated.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
    Question. Still, I am still very concerned about the health and 
welfare of our service members with visible and invisible wounds. 
Recent events with the Army Warrior Transition Units have demonstrated 
that we still have a lot of work to do to ensure the health and welfare 
of the servicemembers remaining on active duty or transitioning into 
the VA system.
    Admiral Mullen, I know combat related stress is a great concern for 
you and each of the service chiefs, how is the DOD improving upon the 
existing mental health programs? Are you implementing new programs?
    Answer. A broad range of programs have been designed and 
implemented to sustain the health and well being of active and reserve 
Service members and their families before, during, and after 
deployment. There has been a series of both operational and in garrison 
programs implemented to include bolstering our Combat stress teams in 
theater; developing stress control programs to prepare Service members 
to better cope with combat and deployment stress; programs that target 
medical providers who may be experiencing provider fatigue; 
implementation of a DOD-wide Total Force Fitness program as an approach 
to strengthen resilience and enhance endurance to maintain optimal 
military force readiness; Wounded, Ill and Injured Program addressing 
reintegration needs of the wounded, ill, and injured striving to be 
responsive to the needs of our wounded warriors and their families; 
reintegration assistance programs across the DOD to assist with 
reintegration of the family. The Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury (TBI) provides a 
number of education and outreach programs to include a 24/7 help-line; 
real warriors campaign multimedia public education effort which combats 
stigma associated with seeking psychological healthcare and encourages 
utilization of available psychological health resources. In addition, 
the Joint DOD and VA Health Executive Council's (HEC) Mental Health 
Working Group is an expert panel who plan and implement procedures to 
create a seamless transition of care aimed at improving the access, 
quality, effectiveness, and efficiency of mental health services for 
all Active Duty, National Guard, Reserve, Veterans, and their families.
    Although we have embarked on many programs to provide the best 
possible psychological healthcare for our warriors and family members, 
I still have concerns with the invisible wounds and we still have work 
ahead of us. The OASD-HA Office of Strategy Management recently 
conducted a Psychological Health/TBI Program Review which detected gaps 
in existing programs. Additionally, the DOD has been slow to engage in 
opportunities for collaboration with the civilian sector academia and 
pure scientific research in the area of brain mapping and psychological 
health research; the lack of comprehensive entry psychological 
evaluations is evident and we lack the resources (professional staff, 
funding and time) to conduct more detailed and comprehensive 
psychological health assessment of Service recruits and candidate prior 
to and during initial induction into the military. We as a Department 
need to stratify our outlook beyond the current issues and align our 
psychological health goals and objectives in the manner of a preemptive 
strike and not in the manner as a reaction to a strike. As I have 
stated before, how we take care of those who are wounded and their 
families, and the families of the fallen, is right at the center of my 
life. They've done exactly what we've asked them to do. They've put 
themselves in harm's way, and many of them have not come back. There 
is, in my view, no higher duty for this nation, or for those of us in 
leadership positions, than to care for those who sacrifice so much and 
who must now face lives forever changed by wounds both seen and unseen. 
I think leaders throughout the land and throughout communities in our 
country need to reach out and make sure that we are meeting the needs 
of these great, young Americans who sacrificed so much. And not just 
the military members, but their families. And while we've made a lot of 
progress in the last several years, we still have an awful long way to 
go.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene on 
Wednesday, June 23, at 10:30 a.m., to hear testimony from 
public witnesses. Until then, we will stand in recess.
    Thank you.
    [Whereupon, at 12:10 p.m., the subcommittee was recessed, 
to reconvene at 10:30 a.m., Wednesday, June 23.]

</pre></body></html>
